<html>
<title> - [H.A.S.C. No. 112-122] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2013 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TWELFTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 112-122]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2013

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

               SUBCOMMITTEE ON MILITARY PERSONNEL HEARING

                                   ON

                         HAZING IN THE MILITARY

                               __________

                              HEARING HELD
                             MARCH 22, 2012


                                     
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

73-794 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



                   SUBCOMMITTEE ON MILITARY PERSONNEL

                  JOE WILSON, South Carolina, Chairman
WALTER B. JONES, North Carolina      SUSAN A. DAVIS, California
MIKE COFFMAN, Colorado               ROBERT A. BRADY, Pennsylvania
TOM ROONEY, Florida                  MADELEINE Z. BORDALLO, Guam
JOE HECK, Nevada                     DAVE LOEBSACK, Iowa
ALLEN B. WEST, Florida               NIKI TSONGAS, Massachusetts
AUSTIN SCOTT, Georgia                CHELLIE PINGREE, Maine
VICKY HARTZLER, Missouri
                Craig Greene, Professional Staff Member
                 Debra Wada, Professional Staff Member
                      James Weiss, Staff Assistant



                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Thursday, March 22, 2012, Hazing in the Military.................     1

Appendix:

Thursday, March 22, 2012.........................................    23
                              ----------                              

                        THURSDAY, MARCH 22, 2012
                         HAZING IN THE MILITARY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, Ranking 
  Member, Subcommittee on Military Personnel.....................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Military Personnel.............................     1

                               WITNESSES

Barrett, SgtMajMC Micheal P., USMC, Sergeant Major of the Marine 
  Corps..........................................................     5
Chandler, SMA Raymond F., III, USA, Sergeant Major of the Army...     3
Leavitt, MCPOCG Michael P., USCG, Master Chief Petty Officer of 
  the Coast Guard................................................     6
Roy, CMSAF James A., USAF, Chief Master Sergeant of the Air Force     6
West, MCPON Rick D., USN, Master Chief Petty Officer of the Navy.     4

                                APPENDIX

Prepared Statements:

    Barrett, SgtMajMC Micheal P..................................    37
    Chandler, SMA Raymond F., III................................    29
    Davis, Hon. Susan A..........................................    28
    Leavitt, MCPOCG Michael P....................................    45
    Roy, CMSAF James A...........................................    42
    West, MCPON Rick D...........................................    33
    Wilson, Hon. Joe.............................................    27

Documents Submitted for the Record:

    Letter from Hon. Judy Chu to Chairman Joe Wilson and Ranking 
      Member Susan A. Davis, Dated March 22, 2012................    58
    Statement of the Asian American Center for Advancing Justice.    55
    Statement of the Organization of Chinese Americans...........    51

Witness Responses to Questions Asked During the Hearing:

    Ms. Nydia M. Velazquez, a Representative from New York.......    63

Questions Submitted by Members Post Hearing:

    Ms. Judy Chu, a Representative from California, and Mr. 
      Michael M. Honda, a Representative from California.........    67
    Mr. Coffman..................................................    67
                         HAZING IN THE MILITARY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                          Washington, DC, Thursday, March 22, 2012.
    The subcommittee met, pursuant to call, at 1:00 p.m. in 
room 2212, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
  SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Wilson. Ladies and gentlemen, I would like to welcome 
you to a subcommittee meeting of the Military Personnel 
Subcommittee of the House Armed Services Committee. Today, we 
will be taking testimony regarding hazing in the military.
    The committee will come to order.
    Today, the Military Personnel Subcommittee will receive 
testimony from the Services' senior enlisted advisors 
concerning the Services' policies, training, and enforcement 
with respect to hazing.
    This is a topic that cannot be taken lightly. Hazing is a 
degrading act that must not be tolerated in the military or in 
our society. Unfortunately, it happens. The military services 
do have policies on hazing to ensure its members understand it 
is wrong and must not be tolerated. Hazing is contrary to the 
values of our volunteer force and affects the morale of units. 
It violates the professionalism achieved and expected by our 
military.
    The subcommittee will hear from the senior enlisted 
leadership within the Services who are charged with keeping the 
service chiefs informed. These leaders are also responsible for 
ensuring the service member at the lowest level not only 
understands these policies but also knows the courses of action 
that service members should take to remedy the situation when 
policies are violated.
    This issue concerns me as a Member of Congress, as a 
veteran myself of the Army National Guard and Reserves, but 
especially as the father of four sons who are currently serving 
in the military where what we want is the best environment for 
what we know is an opportunity of military service.
    I would like to welcome our distinguished witnesses: 
Sergeant Major of the Army Raymond F. Chandler, III; Master 
Chief Petty Officer of the Navy Rick D. West; Sergeant Major of 
the Marine Corps Micheal P. Barrett; Chief Master Sergeant of 
the Air Force James A. Roy; and Master Chief Petty Officer of 
the Coast Guard Michael P. Leavitt.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 27.]
    Mr. Wilson. Mrs. Davis is our ranking member from 
California. Would you like to make any opening remarks?

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mrs. Davis. Yes. Thank you, Mr. Chairman.
    I am very pleased that the subcommittee is turning its 
focus to the important issue of hazing in the military. Over 
the past year, there has been a number of hazing incidents 
across the Services that have been brought to the public's 
attention.
    I am sure that we would all agree that hazing is a serious 
and deplorable crime. It disrupts unit cohesion and reduces the 
morale of our men and women in uniform; and it can, as we know, 
lead to tragic consequences. Hazing, particularly in light of 
the current ongoing deployments and responsibilities that are 
being asked of our men and women in uniform, is a very serious 
matter.
    I am aware that most of the Services have policies that 
prohibit hazing and harassment, for that matter. But I am 
interested to hear how the Services educate and train our 
military personnel so that they know how to recognize hazing 
and harassment and what they should do to stop it or prevent 
its tolerance among the force. Do we even know how often these 
incidents occur? If incidents are not tracked, how does the 
Service even recognize that this is an isolated incident or an 
epidemic?
    Parents and families who send their son or daughter to 
serve our Nation in uniform are already concerned about their 
health and safety, given the operational requirements service 
members are facing. They should not have to worry about whether 
their child is being subjected to hazing or harassment as well. 
So we need to restore the confidence in our families that the 
Services are doing all that they possibly can to prevent hazing 
from occurring among the force, and hopefully this hearing will 
be one step toward that goal.
    I want to welcome our witnesses. We thank you very much for 
being here, and I certainly look forward to hearing our most 
senior enlisted members of the Services present to us today. 
Thank you very much.
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 28.]
    Mr. Wilson. Thank you very much, Mrs. Davis.
    Without objection, I ask that statements from the 
Organization of Chinese Americans and the Asian American 
Justice Center be included in the record of the hearing.
    Hearing none, so ordered.
    [The information referred to can be found in the Appendix 
on pages 51 and 55, respectively.]
    Mr. Wilson. I ask unanimous consent that other committee 
and non-committee members--and I want to welcome Congresswoman 
Judy Chu of California and Congresswoman Nydia Velazquez to be 
present. Also, Congressman Honda, thank you for coming too, as 
you are just entering--that the three of you be allowed to 
participate in today's hearing after all subcommittee members 
have had an opportunity to ask questions.
    Is there any objection?
    Without objection, non-subcommittee members will be 
recognized at the appropriate time under the 5-minute rule that 
each of us has applicable.
    Sergeant Major Chandler, we will begin with your testimony. 
As a reminder, please keep your statements to 3 minutes. We 
have your written statements for the record.

 STATEMENT OF SMA RAYMOND F. CHANDLER III, USA, SERGEANT MAJOR 
                          OF THE ARMY

    Sergeant Major Chandler. Thank you, Chairman.
    Mr. Chairman, distinguished members of this committee, 
thank you for the invitation to address you on this issue which 
concerns all of us associated with the United States Army.
    Let me give you the bottom line up front. Hazing has no 
place in our Army. We will not tolerate hazing in any form, and 
we will hold those in violation of this policy accountable for 
their actions.
    I spend about 270 days out of the year traveling around to 
post camps and stations throughout the world visiting with 
soldiers and families and discussing a wide variety of topics. 
My overall message to the force is the Army profession. I talk 
about what it means to be a professional, how soldiers should 
conduct themselves, and, more importantly, how they should 
treat each other.
    To be a professional, our soldier must possess the three 
Cs: competence, commitment, and character. The first is easy to 
spot. Competence means you are doing your job and doing it 
well. Commitment and character are not so easy. A soldier who 
is committed to the Army and has character lives the Army 
values at all times, even in the absence of peers or 
leadership. Soldiers who lack character, commitment, or 
competence are not the type of individuals our Nation needs to 
serve as part of our Army.
    We have a duty as professional soldiers to maintain the 
trust and confidence of the American people, not just to fight 
and win our Nation's wars but also to maintain high 
professional and ethical standards. So when a soldier behaves 
inappropriately, Congress and the American people expect the 
Army to hold that soldier accountable. For 237 years, the Army 
has worked hard and successfully to strengthen that bond.
    We must also continue to train and educate our soldiers and 
Department of the Army civilians on the effects of hazing in 
our ranks. The vast majority live the Army values and are truly 
professional. However, even one incident of hazing means we are 
not doing enough.
    I can assure you the Army has taken a strong stance against 
hazing. Hazing is not compatible with our Army values and will 
not be tolerated. The American people trust we will hold 
perpetrators of hazing accountable for their actions, and we 
take that trust seriously.
    I, along with the Army senior leaders, am committed to 
fight hazing until there are no such incidents in our Army 
anymore. Our soldiers, families, Department of the Army 
civilians, and the American people deserve no less.
    I appreciate your time and will answer any questions you 
may have. Thank you very much.
    [The prepared statement of Sergeant Major Chandler can be 
found in the Appendix on page 29.]
    Mr. Wilson. Thank you very much.
    And we will now proceed with the testimony of the Master 
Petty Sergeant Rick West.

   STATEMENT OF MCPON RICK D. WEST, USN, MASTER CHIEF PETTY 
                      OFFICER OF THE NAVY

    Master Chief Petty Officer West. Chairman Wilson, Ranking 
Member Davis, and distinguished members of this subcommittee, 
as a Master Chief Petty Officer of the Navy, I am honored to 
have the privilege of representing more than 427,000 Active and 
Reserve sailors who comprise the finest total force in the 
history of the United States Navy.
    People are absolutely our most precious asset. Their 
individual success and the Navy's collective mission 
accomplishment lie in our ability to provide an environment 
that promotes inclusiveness and a validated sense of value to 
the team. Maintaining a positive command culture that fosters 
these ideas is a top priority of our chief of naval operations, 
for me personally, and for leadership at all levels.
    Hazing unequivocally destroys these ideas and is not 
tolerated in your Navy. It is inconsistent with core values, 
our core values of honor, courage, and commitment, and 
detrimental to the individual esteem and unit cohesion.
    The Secretary of the Navy's instruction on hazing is the 
cornerstone of our approach to education, prevention, 
enforcement, and accountability. Training on hazing, equal 
opportunity, and core values begins with recruits at boot camp 
and is reinforced regularly in a variety of forums throughout a 
sailor's career. We also emphasize and actively train our force 
on bystander intervention as an effective measure to prevent 
numerous offenses, including hazing.
    There is no plausible excuse for lack of awareness on the 
Navy's hazing policy, nor any legitimate explanation for 
violation of a policy explicitly intended to protect the health 
and welfare of our people. Navy policy requires commanders to 
formally report every suspected incident of hazing to the chain 
of command as soon as possible. Every sailor has a 
responsibility to make the appropriate authorities aware of 
hazing. All reported incidents are fully investigated, while 
the rights and needs of victims and witnesses are immediately 
addressed by the chain of command. Those who commit violations 
of the policy and those in leadership positions who may 
tolerate such acts are held accountable.
    We understand people are truly the singular measure of the 
Navy's success. We appreciate your passionate interest in 
protecting their welfare, and we stand committed to meeting 
your expectations.
    I look forward to your questions, sir.
    [The prepared statement of Master Chief Petty Officer West 
can be found in the Appendix on page 33.]
    Mr. Wilson. Thank you very much.
    And we proceed now to the Sergeant Major of the Marine 
Corps Micheal P. Barrett.

STATEMENT OF SGTMAJMC MICHEAL P. BARRETT, USMC, SERGEANT MAJOR 
                      OF THE MARINE CORPS

    Sergeant Major Barrett. Thank you, sir.
    Chairman Wilson, Ranking Member Davis, members of the 
committee, I am grateful for the opportunity to appear before 
you today to discuss the important matter of hazing in our 
Armed Forces.
    The individual marine is our greatest asset. So let me be 
clear, hazing is not a part of our service culture or who we 
are.
    Our official policy states that hazing is contrary to our 
ethos of taking care of our own. It violates the virtuous 
conduct and soldierly repute earned by marines who have served 
the corps honorably since its inception. Hazing fosters a 
climate of maltreatment and cruelty, concepts inconsistent with 
our core values.
    As leaders, we naturally want marines to be successful and 
maintain the desire to stay in our corps. As an institution, 
the only way that the Marine Corps can exist, survive, and 
thrive is through fostering a climate where marines have every 
opportunity for participation and advancement in accordance 
with their talents, backgrounds, culture, and skills.
    The positive contributions of our marines bring us mission 
success. The Marine Corps aims to transform our Nation's youth 
not only into ethical warfighters but into better quality 
citizens. As we do so, we expect to confront matters of hazing 
arising sometimes from the indiscretions of youth.
    The Marine Corps recruits from young demographics; and it 
is well documented that the Marine Corps is the most youthful 
of all the service branches, with 63 percent of the force aged 
25 years or younger. Unfortunately, hazing can manifest 
sometimes in organizations that conflate immaturity, youth, and 
arduous responsibility. In such an environment, young people 
sometimes might confuse hazing with the means for belonging or 
a rite of passage.
    As an institution of more than 202,000 personnel, the 
Marine Corps is not perfect. No institution is. Yet we rely on 
our 236-year legacy of honor, courage, and commitment to help 
us address problems like hazing when they arise.
    Hazing is a behavioral problem and a form of misconduct for 
which we must remain vigilant. The Marine Corps works 
diligently to change behaviors and mindsets into an effort to 
foster better judgment, especially among our junior leaders.
    As a sergeant major of the Marine Corps, I tell our marines 
throughout the entire corps that every marine deserves to be in 
a good unit, led morally, ethically, and professionally; and, 
as such, marines are products of our leadership. Engaged, 
dedicated leaders must display those enduring trust qualities: 
competent, committed, consistently dependable, of the highest 
moral and ethical character, and team mentality. There is no 
greater compliment than one to say to another, I can count, I 
can trust you always. That is our end state.
    Hazing has nothing whatsoever to do with being a leader and 
is not taught as a leadership tool in any period of instruction 
in our schoolhouses. Those engaging in hazing do not act with 
the Marine Corps' blessing. The commandant and I are disgusted 
with that kind of behavior.
    Thank you for this opportunity to appear before you today, 
and I look forward to your questions.
    [The prepared statement of Sergeant Major Barrett can be 
found in the Appendix on page 37.]
    Mr. Wilson. Thank you, Sergeant Major.
    We now proceed to the Chief Master Sergeant of the Air 
Force James A. Roy.

STATEMENT OF CMSAF JAMES A. ROY, USAF, CHIEF MASTER SERGEANT OF 
                         THE AIR FORCE

    Chief Master Sergeant Roy. Chairman Wilson, Ranking Member 
Davis, and distinguished members of the subcommittee, thank you 
for an opportunity to speak on behalf of the more than 500,000 
men and women who comprise the finest Air Force our Nation has 
ever seen.
    Today's airmen are highly motivated and better qualified to 
conduct our missions across the globe than ever before. 
Regardless of where they serve and what they do, none of our 
airmen can complete this mission alone. Each of us needs a 
wingman to help make sure this job gets done.
    Our Service's most precious commodity is our airmen. To 
protect them, we create and promote a culture of respect and 
dignity. Airmen are exposed to human relations training early 
and often, starting with recruitment, basic training, 
continuing through separation and retirement. This training 
makes it clear that activities like hazing will not be 
tolerated.
    The Air Force holds leaders responsible for creating a safe 
work environment. However, we believe all of our airmen are 
leaders; and, therefore, we hold all airmen accountable for 
recognizing conflict and intervening as necessary, especially 
in less formal settings.
    Although the Air Force does not have its own policy on 
hazing, the DOD's [Department of Defense] definition and 
guidance is implemented through our subordinate commands. Our 
accession sources have adopted the DOD's definition to appeal 
to the targeted audiences. This allows us to impart on our 
airmen that hazing will not be tolerated and serves as a 
foundation for the culture and respect and dignity we build 
starting at accession and continuing throughout an entire 
career.
    I would like to thank you again for your continued support 
and concern for our airmen and their families.
    [The prepared statement of Chief Master Sergeant Roy can be 
found in the Appendix on page 42.]
    Mr. Wilson. Thank you very much for being here today.
    And we conclude with the opening statements with Master 
Chief Petty Officer of the Coast Guard Michael P. Leavitt.

  STATEMENT OF MCPOCG MICHAEL P. LEAVITT, USCG, MASTER CHIEF 
                PETTY OFFICER OF THE COAST GUARD

    Master Chief Leavitt. Good afternoon, Chairman Wilson, 
Ranking Member Davis, and distinguished members of the 
subcommittee. Thank you for the opportunity to appear before 
you to discuss issues related to military hazing.
    I, along with all the leaders in the Coast Guard, am 
responsible for ensuring our personnel are treated with dignity 
and respect. Hazing serves no purpose and is contrary to our 
core values of honor, respect, and devotion to duty.
    The Coast Guard's hazing policy is found in a discipline 
and conduct manual released in October of 2011. The policy 
defines hazing and clearly states that consent does not 
eliminate accountability. Hazing can be punished under 
provisions of the Uniform Code of Military Justice and in 
severe situations may result in court-martial, fines, 
reductions in rank, jail sentences, and/or punitive discharge 
from the Coast Guard.
    Hazing typically occurs in connection with unofficial, 
unsupervised initiations for other informal rites of passage 
and are not authorized in the Coast Guard or unit policy. In 
those cases, offenders seem to target junior personnel.
    Prevention of hazing can best be achieved through training 
and strong leadership that is engaged and is involved at all 
levels. This will help ensure the culture across the Coast 
Guard is intolerant of hazing.
    We are constantly striving to improve our organizational 
culture and our workplace environment. For example, every 2 
years, the Coast Guard conducts a comprehensive survey of the 
workforce called the Organizational Assessment Survey. The 
results consistently show the Coast Guard is rated strong in 
several key areas, such as communications, diversity, 
leadership and quality, supervision, team work, and work 
environment. We will continue to monitor trends in these key 
areas in order to prevent and eradicate inappropriate behaviors 
such as hazing.
    All personnel must understand that hazing will not be 
tolerated, and no one may consent to being hazed, which is an 
important part of our policy. Training of all Coast Guard 
members occurs during recruit training and annually thereafter.
    Awareness and support of hazing policy has been emphasized 
by senior leadership. The commandant as well as Pacific and 
Atlantic area commanders have recently released messages 
regarding hazing, sending a strong and clear message to the 
workforce. Leadership courses for our perspective commanding 
officers and officer in charge as well as our boat force's 
command cadre positions include training on hazing, thus 
ensuring future leaders understand and enforce the policy.
    So, as I close, let me emphasize that the Coast Guard 
places the highest priority on preventing hazing. We have 
strong and clear policy, extensive training, effective 
leadership, and an environment within the Coast Guard to ensure 
our members are treated with dignity and respect. It is 
essential to eradicate hazing so all Coast Guard members may 
fully contribute to mission success. The people of our great 
Nation deserve nothing less from us.
    So thank you again for the opportunity to testify today, 
and I look forward to answering any questions you may have.
    [The prepared statement of Master Chief Leavitt can be 
found in the Appendix on page 45.]
    Mr. Wilson. Thank you very much, and thank each of you for 
being here today.
    This is a real honor for me to have not only members of our 
subcommittee, but we have three other members who are very 
interested, and rightly so, in this very, very important issue; 
and so it is an opportunity to have very dedicated Members of 
Congress here on this issue.
    We will have a 5-minute rule. And I appreciate Mr. Craig 
Greene, the professional staff, will be maintaining the time; 
and we will be proceeding with each person of the subcommittee 
and then our visiting welcomed members.
    At this time, my first question is, I believe that hazing 
contradicts, as has been stated, the Services' core values. 
There are policies and training that attempt to prevent hazing. 
I am interested to know, beginning--and we will start with the 
Army and go to the Coast Guard--how you, as the senior enlisted 
members of the Service, emphasize through the noncommissioned 
officers [NCO] chain that hazing threatens the effectiveness of 
your Service and will not be tolerated.
    Sergeant Major Chandler. Thank you, Mr. Chairman.
    Recently, we have published a letter to all members of the 
Service about hazing. The Secretary of the Army, the Chief, and 
I have tri-signed a letter to reemphasize the Army's commitment 
to prevention or elimination of hazing.
    Within training, we do that within the initial military 
training environment through basic training through the United 
States Military Academy. The Army does not have a formal policy 
or training program at the unit or individual level 
specifically focused on hazing, and we are actually 
reconsidering whether or not we need to make some adjustments 
in our training program.
    Sergeant Major Barrett. Throughout the life cycle of an 
average marine, and we will say the average marine's is 4 
years, because 75 percent of our cohort gets out every 4 years, 
but in that 4-year timeframe every single marine will go 
through not less than or a minimum of 11 times they will 
receive value-based leadership and value-based training. From 
the second they step on the yellow footprints at Parris Island 
or San Diego, to the time they go to their infantry training 
battalion for their Marine combat training, all the way to when 
they step into their MOS [military occupational specialty] 
school, and then when they get to their first unit, they are 
welcomed aboard, and then they receive annual training, all the 
way through to the Service or the rank appropriate EPME 
[enlisted professional military education] academies that they 
will attend. So through the life cycle of an average marine, 
through 4 years, a minimum of 11 times, they will receive their 
training.
    We have also refreshed and reenergized our policy order 
that more clearly delineates exactly what hazing is. That was 
not in our old order, and we have reengaged and we reenergized 
our leadership to take that forward and take it down to the 
lowest level.
    Master Chief Petty Officer West. Sir, thank you.
    For the Navy, it is a continuum of training from the time 
that individual starts into boot camp until that individual is 
out of the Navy, essentially. But we reinforce that at all 
levels, at all times. We do that through a variety of mixed 
training, from the classroom-type training to individual-based 
training, i.e. GMT, general military training.
    We also have the levels of training associate at our 
command leadership schools, which our COs [commanding 
officers], our XOs [executive officers], department heads, and 
our command master chiefs receive that training as well.
    We check that as well throughout a sailor's career by 
various means, such as a CMEO survey, or Command Managed Equal 
Opportunity survey, or through various visits to the fleet, 
which we receive feedback.
    And, also, now as well social media is a powerful tool 
which we are able to get indicators that are out there.
    But it is a continuum, sir, and we will continue to press 
forward on that. We do have a policy in place that is out 
there. It is very clear to our leaders, and it is very clear to 
our sailors.
    Chief Master Sergeant Roy. Again, sir, thank you for the 
question.
    Just like others have stated, ours begins at accessions, 
whether it be officer enlisted, begins at accession. It goes 
through professional military education. It also touches on 
those command billets. Every time that somebody gets prepared 
for a command billet, it is touched on as well.
    And then also one area that we do a little different maybe 
is during expeditionary start-up training. We also provide it 
there, and we do annual training as well.
    Some of the ways that we measure its effectiveness is, 
obviously, through the surveys of the IG [Inspector General] 
and others, through travel of just visiting the units, commands 
and such.
    Master Chief Leavitt. Mr. Chairman, I would echo the same 
as a lot of my other peers here.
    Our training starts in recruit training, as I mentioned in 
my oral statement. And then as we push through the Service, as 
you know, there is a certain level of maturity that you 
increase when you try to figure out what the core values mean. 
When you come in at 18 years old, they might be a little bit 
different as you are adjusting to the Coast Guard.
    It is really important for the senior leadership to 
understand what these values are and what they look like. And 
so our training programs to look at our command cadre, take a 
look at what your command climate is. And one of the key things 
of that is really focusing on your leadership at all levels and 
understanding what hazing, which is another one of the 
behaviors, because you have other things out there too. But 
hazing is definitely a detriment to your command climate, 
identifying what those things are and training for that. At the 
end of the day, training is a great thing.
    We have all those things in place. It is what we do on the 
front lines and how we take care of those things and then how 
we hold those things accountable.
    Mr. Wilson. And as we proceed to Mrs. Davis I would like to 
point out that I always found it helpful at armories, at dining 
facilities, to have posters identifying that hazing is not 
tolerated. And what I would hope that it could indicate are the 
chain of command of if you feel like you have been hazed what 
to do and that there will be a follow-through. But I just--a 
suggestion. I always found it very, very helpful.
    Proceed to Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And I wonder if we could just assume for now that a 
majority of incidents are reported. And you can speak to that, 
and perhaps that is really not the case.
    But if we have a number of incidents how do you track that? 
How do you really watch those incidents over time? Are there 
any statistics that would indicate what happens as a result--
disciplinary action, punitive action, whether court-martial. 
Are there stats to demonstrate that and how vigorously, I 
guess, do you feel that that represents the situation that we 
have before us?
    Sergeant Major Chandler. I can go first.
    From the Army perspective, the challenge for us is that 
there is no punitive or statutory title for hazing. There are 
many for other forms of misconduct, but there isn't one for 
hazing.
    So if you want to do a search, which the Army has started 
to search through all of the previous records of judicial 
punishment to determine, you know, we do have some statistics. 
I am not comfortable with the quality of the statistics, 
because you have to really drill down into each one of the 
charges to see whether or not it was an assault which may have 
been a fisticuffs or if it was an assault that you could then 
turn to hazing.
    However, what we do have is that, since 2006, we have 71 
cases that meet the criteria for hazing, which involved 139 
subjects and 123 victims. Of the 139 subjects, 65 received some 
administrative, judicial, or non-judicial punishment; and 43 
are still pending adjudication; 21 have no action taken.
    So I am not positive that that is a final answer, but it is 
a preliminary search of where we stand. And I think the titling 
question, whether or not we have a specific specification for 
hazing, may help us to better identify this.
    Sergeant Major Barrett. We have just presently started with 
the new order that has been delivered that has been sent out by 
the commandant of the Marine Corps. We are now starting to 
track in our case management system, in our SJs [summary of 
judgments], hazing-specific any allegations or confirmed cases 
of allegation are immediately reported to our operational 
reporting systems, and they are reported directly to the 
commandant of the Marine Corps. So we have now a tracking 
system in place that we didn't have before.
    And I concur with exactly what the Sergeant Major of the 
Army said. When it comes down to the particular criteria, when 
you look at article 92, disobey of a lawful order; or cruelty 
or maltreatment for article 93; or 128, assault, you have to 
drill down to find out those things that may have caused that 
to lead to a hazing incident.
    And I also concur with the Army with what he said that 
maybe hazing as another element inside demand of court-martial 
be specifically delineated as a way ahead.
    Master Chief Petty Officer West. Ma'am, from a Navy 
perspective, our Secretary of the Navy instruction of 2005 has 
directed us to all substantiated incidents of hazing be 
reported via OPREP [operations report] or SITREP [situation 
report] to our CNO [Chief of Naval Operations].
    Now, we also have recently started tracking all incidents 
of hazing via a quarterly criminal activity report via our JAG 
[Judge Advocate General]. With that, since 2009, we have had 46 
reported hazing incidents, an average of 15 a year. Twenty of 
those 46 resulted in punitive, administrative, or disciplinary 
action.
    Also with that we drilled a little deeper in it. We have 
seen no injuries occur because of the incidents, no suicides or 
suicide ideations was reported in association with those 
incidents, and race was not a reason or cause for any of those 
instances as well. The majority of these were physical 
incidents where most of them were senior to junior, 
characterized as horseplay activity associated with promotion 
or qualification achievement.
    Chief Master Sergeant Roy. Again, as others have stated, 
inside the non-judicial punishment there is not really a label 
per se to pull down. However, we do track through our IG 
system. We have tracked, since 2005, 21 different incidents. Of 
that, one being substantiated. The others, as we turn them to 
command and they report back to us on which actions were taken, 
again, one of them being substantiated.
    Master Chief Leavitt. Ma'am, since 2009, we have had nine 
court-martial cases that we keep track of, and seven of those 
cases occurred at one unit. So there was conflict at one area, 
and there are two others. Some of these cases are still 
pending, so we are going to wait for that, but that is where 
our numbers sit at right now, ma'am.
    Mrs. Davis. Okay. Thank you.
    Thank you, Mr. Chairman.
    Mr. Wilson. Thank you very much, and we now proceed with 
Congresswoman Madeleine Bordallo of Guam.
    Ms. Bordallo. Thank you, Mr. Chairman; and I thank all of 
you gentlemen for being here this afternoon.
    I have just a couple of questions, and any of you please 
feel free to comment for your respective Services.
    We know that each Service seems to have a zero tolerance 
for hazing, but it is still occurring. Can you tell me how 
hazing has been dealt with in the past, the lessons that we 
have learned over the years, and have you employed today more 
effective ways to combat this type of behavior? How is it 
different today than it was yesteryear?
    We can begin with whoever would like to begin.
    Master Chief Petty Officer West. Ma'am, I will tell you I 
have been in the Navy since 1980, signed the papers, and I can 
tell you from then to today it is night and day in comparison.
    We helped put several corrective measures, as I previously 
stated, into place. We are constantly talking about it. In 
fact, this particular year I instituted a policy called CPO 
365, and it goes back to the CPO or the chief petty officer 
inductions that we have been doing for many years. Those of the 
past were behind the closed doors and probably not a thing that 
we would be proud of. Those today, it is a training 
opportunity. It is more so of a training evolution, and we put 
things in place that teach our sailors our core values and our 
history and heritage.
    Sergeant Major Barrett. We have also heightened our 
awareness of the situation. In 31 years of service, I have seen 
cases of hazing that have come before me as being in the 
leadership position. I have seen them adjudicated. I have seen 
those who wrongfully committed the violation. I have seen them 
held accountable. I have seen it at the NJP [non-judicial 
punishment] level. I have also seen it at the court-martial 
level. And I have also seen it where it was something as simple 
as a marine pushing a marine, where it was more of an 
administrative counseling level.
    So I have seen it at every single level, and I have seen 
convictions, and I have seen the wrongdoers held accountable. 
There is a heightened awareness in the United States Marine 
Corps. We have changed our orders, and we have made it more--
like I said, we have made it more detailed to truly explain and 
wash away gray area.
    Mr. Bordallo. Thank you.
    Sergeant Major Chandler. From an Army perspective, ma'am, I 
came in the Army at roughly the same time as Master Chief Petty 
Officer Rick West did.
    And I stood on the back deck of my tank on Grafenwoehr, 
Germany, in 1982 and was promoted to PV2 private. And at that 
time it was a very common practice to have the backing taken 
off of your rank and basically people punch it into your skin. 
And that was a common practice throughout the Army. That is not 
a common practice today. We call those blood stripes.
    Another measure that used to happen in the past was a 
gauntlet where soldiers from the platoon would line up on 
either side and as a soldier walked by they would punch him or 
her in the arm. We don't tolerate that anymore. And that really 
started to change back in the mid-'90s really when we realized 
that those types of behaviors were not in keeping with who we 
say we are as professional soldiers.
    I believe and my experience in the Army is that we do not 
have large incidents of hazing throughout the Service, but we 
still have incidents like have happened here recently that 
cause great concern. So we have not completely eradicated it, 
and our commitment--my commitment--is to see that that happens, 
and until it is I am very concerned.
    Chief Master Sergeant Roy. If I could just add to that, 
ma'am.
    I have only been in for 30 years. We haven't had the blood 
stripes of sort that has been described. But I will tell you, 
based on the culture of the United States Air Force, based on 
the values that have been published and believed amongst all 
airmen--and I think one other key point, and the Master Chief 
said it earlier, is this idea of bystander training is so, so 
important, that it is not just the member, but it is also those 
that are around those members that should say something as well 
should they see something. And that has really kind of capped 
it off for us.
    Master Chief Leavitt. I would like to answer up.
    I think in the Coast Guard we just updated our discipline 
and conduct manual which does a much better job of defining the 
elements of hazing. I think that is a great tool for our 
leadership to look at and for all our members in the Coast 
Guard.
    And then the second thing, as soon as the commandant and I 
took over this job, the commandant updated all our policies to 
reflect those elements, which hazing is one of those elements 
and respecting our shipmates, one of his four principles. And 
then he sent a clear message to the field on several other 
issues of unethical behaviors, and hazing was one of those, and 
talked about how those types of things undermine our morale, 
which degrades our readiness and damages our mission 
performance. I think those are critical elements pushing 
forward on in regards to hazing.
    Mr. Bordallo. Thank you.
    Mr. Chairman, in interest of time, if I could just--one 
question, and one of you could answer this. It is important to 
me.
    Given the recent incidents with Asian Pacific Americans, 
how are the Services learning from these unfortunate 
experiences and applying lessons to avoid these problems as we 
go forward in implementing ``don't ask, don't tell''?
    If just one of you could perhaps answer.
    Master Chief Petty Officer West. Ma'am, I will tell you 
from a Navy perspective we constantly train to, one, the 
policy. Two, we take incidents such as those and those that 
happen in our Navy and we make them case studies.
    I was just up in Newport, Rhode Island, where we teach our 
commanding officers, our executive officers, and our senior 
leaders, enlisted leaders. And they will basically walk through 
an incident from A to Z to make sure, one, they understand it; 
two, what would they do. So it is train to; and, more 
importantly, it is enforced.
    Mr. Bordallo. Thank you. And thank you, Mr. Chairman.
    Mr. Wilson. Thank you, Ms. Bordallo.
    And we now proceed to Congressman Mike Coffman of Colorado.
    Mr. Coffman. Thank you, Mr. Chairman.
    I am somewhat worried by the direction of the discussion 
here. If we think that the problems that recently arose with 
the two Asian Americans was a function of hazing and that was 
all that we have to deal with, I think we have really missed 
it. I think what we really fundamentally have at the end of the 
day is a failure of small unit leadership, is a failure of NCO 
[non-commissioned officer] leadership.
    When you are in a ground combat team, there is no stronger 
interdependent bond that happens. And so what we have is 
really, in a sense, a soldier--and I am less familiar with the 
case in the Marine Corps--but who was rejected by his fellow 
soldiers. And you had an NCO, probably you had a squad leader--
I can't remember how the Army is organized that way--but you 
had a squad leader, and you had a platoon sergeant, and you had 
a first sergeant that either knew about it and did nothing or 
should have known about it.
    And it is for somebody who has never been in that 
situation, who has never been a part of a ground combat team, 
could never realize how difficult that is when you have been 
rejected by that team and you are there, and you are there.
    And so I think that if we say that we have corrected hazing 
and we don't deal with the psychological component of this we 
have really missed the mark. This is much more about physical 
hazing. This is really about a fundamental failure of 
leadership at the most basic levels. And so I mean I am just 
really stunned by it all.
    And I do have to ask the United States Navy a question, and 
that is that I saw a media report about some sailors who were 
recently disciplined for a hazing incident being deployed 
aboard ship, and it was caught on some sort of observation 
cameras, and they were discharged.
    Master Chief Petty Officer West. Yes, sir.
    Mr. Coffman. Am I correct in that?
    Master Chief Petty Officer West. Sir, that is absolutely 
correct. There were eight sailors that were charged, taken--as 
a matter of fact, it was investigated, and they were charged. 
The CO took them to mast. There was a battery of disciplinary 
actions, one of which they were all discharged from the Navy, 
yes, sir.
    Mr. Coffman. I have to say that, you know, we are going to 
find our way here, but I do think that is--let me tell you 
where that is an overreaction. They should have been 
disciplined. It should have been maybe article 15, maybe 
summary court. I don't know the specific circumstances. But we 
are going beyond correcting this problem and politicizing it by 
saying to those sailors with one incident--if I understand the 
article I read correctly--that we are going to--and what kind 
of discharge did they receive for that incident?
    Master Chief Petty Officer West. General discharge, sir.
    I would also say that I rely on the chain of command. The 
chain of command was there. They investigated. And those 
leaders on the deck plate, which I wasn't there to see, they 
applied the discipline as they seen fit on the deck plate.
    Mr. Coffman. And that took place after all the 
congressional concern that was expressed publicly. But, you 
know, I question that. I just hope that, and particularly in 
the Army and the Marine Corps--well, in all the Services. I 
served in the Army and the Marine Corps, but in all the 
Services that we have certainly better leadership that ought to 
recognize this.
    You know, we just had an incident in Afghanistan where a 
staff sergeant went and killed 16 civilians, and it has 
practically derailed our policy. Where was the leadership there 
in recognizing this person was starting to, you know, go off-
kilter? You know, where was that leadership? Where was the 
leadership for Private First Class [PFC] Chen? Where was the 
leadership in Lance Corporal Lew?
    It was missing. That is the fundamental issue. To me, it is 
more about the lack of leadership by the NCOs than it is about 
the conduct of the junior enlisted in these alleged hazing 
incidents.
    Mr. Chairman, I yield back.
    Mr. Wilson. Thank you very much, and we proceed now to 
Congresswoman Niki Tsongas of Massachusetts.
    Ms. Tsongas. Thank you, Mr. Chairman.
    Welcome to all of you, and I appreciate very much your 
testimony, and I appreciate again the efforts that you all are 
putting into this.
    But I have to say, as I listen to it, there is a deja vu 
quality to it. This subcommittee and the broader Armed Services 
Committee has spent much time addressing the issue of sexual 
assault in the military. And over the course of my tenure here 
in Washington, which has not been that long, but I know even in 
the years before there are many instances in which you all or 
representatives of the Service came to talk about the policies 
you were putting in place to address the issue, the training 
you were putting in place to address the issue. But the reality 
was that, despite all those good efforts, in returning visits 
it has become clear that there are many, many shortcomings. So 
as you deal with this issue I would encourage you to put in 
place metrics, objective ways of measuring the outcomes of all 
this hard work that you do.
    And I support also what my colleague, Mr. Coffman, has 
said, in that instance as well as in this one, it is clear that 
the role, the leadership role, the role of the command 
structure is very, very important and that there have to be 
accountability measures built into that as well.
    So really just to make a statement. I thank you for your 
testimony. I appreciate the hard work, but it should not be 
spinning your wheels, and we have to find ways to make sure 
that that is not the case. But thank you for being here.
    Mr. Wilson. Thank you, Ms. Tsongas; and we now proceed to 
Congresswoman Judy Chu of California.
    Ms. Chu. First, I want to thank Chairman Wilson and Ranking 
Member Davis for allowing me to attend this hearing today. I 
have been trying to get a hearing on this issue for many 
months, and I am grateful that you are focusing on this 
critical matter.
    And the American people watching, in just a few days I have 
received 2,097 letters and petitions from concerned citizens 
calling on us to do something about hazing, and these are the 
petitions right here. I ask unanimous consent to submit a 
letter summarizing these petitions for the record.
    Mr. Wilson. Without objection.
    Ms. Chu. Thank you.
    [The information referred to can be found in the Appendix 
on page 58.]
    Ms. Chu. Today's hearing is just a first step. I hope the 
committee will continue to work together on this issue in the 
coming months.
    I have a personal reason for being here. My nephew was a 
victim of hazing, and it killed him.
    Hazing is a serious problem in the military, and though the 
military has policies in place, they aren't being enforced, and 
they aren't effective. Just last year, Private Hamson Daniels 
McPherson, an African American stationed in Okinawa, facing 
near-constant racist hazing by his fellow marines, finally, he 
set himself on fire and died.
    Last year, Private Danny Chen was hazed for 6 weeks. He was 
dragged across gravel until his back bled. Rocks were thrown at 
him to simulate artillery. He was called ``gook'' and 
``chink.'' Finally, Danny shot himself to death.
    In 2010, black Army Specialist Brushaun Anderson was pushed 
to his physical limit for weeks. He was made to build a sandbag 
wall with no purpose. He was called dirty and forced to wear a 
plastic trash bag at all times. Finally, he could take no more. 
He went to the latrine and shot himself to death.
    And then there is my nephew Harry. The Harry that we knew 
loved to joke and, in fact, was known for his skills in break 
dancing.
    At age 19, he enlisted in the Marines and was sent to 
Afghanistan. On April 3rd, Harry was found asleep on duty. At 
11:15 p.m., his sergeant cursed at Harry loud enough to wake up 
the rest of the marines, announcing that peers should correct 
peers.
    At 12:01 a.m., the hazing onslaught began. Harry's peers 
took it upon themselves to administer justice and corrective 
training. They berated him and ordered him to dig a foxhole, to 
do pushups, crunches and planks with his heavy full body armor 
and a 25-pound sandbag. They stomped on his back, kicked and 
punched him, and poured the entire contents of a sandbag onto 
his face and in his mouth. It lasted a full three hours and 20 
minutes.
    Finally, 22 minutes after they stopped, at 3:43 a.m., Harry 
climbed into a foxhole and killed himself with his own gun. He 
was 21 years old.
    And what punishment was given? Virtually nothing. In 
Harry's case, three marines were charged. One marine was given 
just one month in confinement. Two were found not guilty by a 
jury of their peers, fellow marines.
    The platoon just had a big celebration for beating the 
charges, as we saw on their Facebook. All of them are free to 
continue with their military careers, be promoted, and continue 
their behavior. Even a jaywalker would get a worse punishment.
    When I talk about Harry, the reaction from the outside 
versus the inside is like night and day. The outside is 
horrified. But, from the inside of the military, the top brass 
usually says, we prohibit hazing, we do not tolerate hazing, 
these are isolated incidents, we are perfect. But the rank-and-
file soldier almost to a person usually says, hazing is 
necessary to correct bad behavior and keep soldiers strong. 
Better one person die even at the hand of his fellow service 
members than compromise the entire unit's safety.
    Why do I know people say this? Because I heard them say it 
at the jury trial over and over again as a defense for those 
marines. And I saw it in the letters to the editors, and I saw 
it in the blogs. This is the attitude that is in the military, 
and it is pervasive.
    So here is what I say. You cannot know if these are 
isolated incidents, because none of you even keep records on 
hazing. In Harry's unit alone there were six previous cases of 
hazing within a year.
    Do you think you can't do better, that losing a few 
soldiers' lives here and there at the hands of their fellow 
soldiers means you are doing everything perfectly? If there is 
no culture that tolerates or encourages hazing, then why did 
these men die for no reason? What are you doing, if anything, 
to change the culture of hazing and institute what I think is 
necessary, a zero tolerance policy on hazing that actually 
holds soldiers accountable?
    Mr. Wilson. If any would like to answer.
    Sergeant Major Chandler. Well, first of all, I am 
personally disturbed by hazing, okay. I am appalled, and I am 
disgusted by the actions of soldiers who I, as the senior 
enlisted leader for our Army, am here representing. I don't poo 
poo this. I don't think that it is something that should be 
cast off or given any kind of, you know, wash away or hand 
wave. This is important things. Because it is about who we say 
as we are as professionals.
    When a young man or woman is hazed, it is not corrective 
training. It is abuse. And there is a significant difference 
between abuse and corrective training. Corrective training, 
when applied properly in the Army, means that it is tied to a 
specific training deficiency; and the leader is there with the 
soldier making sure that the training deficiency is overcome 
and that the corrective action is in line with that.
    So, for example, if I show up late to a formation my leader 
may ask me to come or demand or order me to come to my next 
place of duty early in a specific uniform. And when I have met 
the standard that applies to that training deficiency then we 
go on about our business.
    From the Army perspective, from my perspective, this is not 
something that we are going to tolerate. And I am committed, 
along with the rest of the Army leadership, to solve this 
problem. It is against who we say we are. And if one man or 
woman, one of our brothers or sisters, dies because of our own 
actions, that is not okay with me, and I am committed to this.
    Sergeant Major Barrett. I am echoing every single thing 
that the Sergeant Major of the Army said. We are taking as an 
aggressive stance and fight towards all disgusting societal 
issues and concerns that are plaguing the Services. And I am 
not talking just about hazing. I am talking about drugs, 
alcohol, domestic violence, criminal mischief, sexual 
misconduct, tasing, operational stress, forced preservation 
measures, hazing and suicide.
    We are taking aggressive steps. Our behavioral health 
program has integrated every one of our programs at 
headquarters Marine Corps to better synchronize the research, 
the resources, the policies, the training, the prevention, and 
the treatment for all these things. I refer to them as the 
insurgents inside of our wire, and it is affecting every single 
Service sitting at this table.
    We are aggressive. We are constantly taking and making 
assessments, and we are going after a problem when we see the 
problem.
    Ma'am, what happened to Lance Corporal Lew is disgusting. 
The small unit leadership that the congressman was speaking of 
10, 15 minutes ago, he is absolutely spot-on. The small unit 
leadership failed. I wish I could take it all back. We should 
have done better. But we are aggressively attacking these 
societal concerns as hard as we can possibly take them, and you 
have our assurance on that, ma'am.
    Mr. Wilson. Thank you, Ms. Chu; and we will proceed to 
Congresswoman Nydia Velazquez of New York.
    Ms. Velazquez. Thank you, Mr. Chairman, Chairman Wilson, 
and Ranking Member Davis.
    Sirs, our immigrant community is truly something that makes 
our country great. In New York, where I am from, this community 
has always been our strength, growing not just from all over 
the world but serving as a magnet for young people in this 
country. As I go to the various parts of my district, whether 
it is the Polish community, Chinatown, or some West Indies 
communities, the pride they show in their new country, their 
country of choice, is inspiring.
    This is especially true with the young people. It is not 
surprising that they would want to show that pride through 
serving the military or in the military. I have attended over 
100 of induction ceremonies. Seeing the young men and women as 
they are beginning their military careers with the American 
flag in their lap beaming with pride is inspiring.
    Private Danny Chen was one such excited young people. He 
was my constituent, embarking on a new chapter of his life 
serving this country. He had a true love for this country and 
wanted to give back. So imagine the shock he felt upon arriving 
at his unit to find he was not only unwelcome but the focal 
point of systemic torture, an act that can only be described as 
appalling. The result cost us a very special young man who had 
so much to offer.
    What is important to understand is, when we have these acts 
take place, they don't just impact the individual or family. 
They impact entire communities. As I talk to family, friends, 
teachers, and those who knew Danny, I keep hearing a familiar 
refrain, how could this happen? And while I appreciate all the 
discussion of the policy on hazing and the difference it will 
make, I need to hear how the leadership of the military and 
Services, of all Services, going forward is going to make this 
policy part of everyday life, just like a soldier formation so 
it is second nature. This cannot be another paper policy stuck 
up on a bulletin board or discussed one day and forgotten the 
next.
    So my question to our representatives from the military is, 
what mechanisms will be in place to ensure that there will be 
regular top-to-bottom reviews to ensure the policy that we have 
heard about today is implemented properly and becomes part of 
our armed services' everyday life?
    And I heard, I heard your anger, I heard your frustration 
and your commitment. I need to hear what is the mechanism that 
will be in place to make sure that this is part of every 
soldier, men and women's, life, day life?
    Sergeant Major Chandler. Yes, ma'am. And I appreciate your 
sentiments.
    We have established a working group. The Director of the 
Army Staff, Lieutenant General Troy, has directed a working 
group between Army TRADOC [Training and Doctrine Command] 
forces command, the Army National Guard, and the Army Reserve, 
along with the Army staff to do a comprehensive review of our 
current policy, to look for gaps that are associated with our 
current policy and training programs, and then to look at 
either changes to our Army policy or to request changes to the 
DOD or even up through Members of Congress if we need to have a 
statutory change to ensure we have the enforcement mechanisms 
we need.
    From a training perspective, we are going to look at how we 
train this across the Army and whether or not we need to insert 
it as a special topic as a mandatory training like our Marine 
Corps and Navy brothers have done.
    And that is our commitment. We will have a program. We are 
in the very early stages, but I expect a very rapid turn. The 
Secretary of the Army has demanded swift action, and I believe 
we will have it.
    Ms. Velazquez. And, sir, are you getting input from 
different immigrant communities?
    Sergeant Major Chandler. I am not sure about that, ma'am, 
but I can take that question for the record and get you a 
response.
    [The information referred to can be found in the Appendix 
on page 63.]
    Sergeant Major Barrett. Thank you, ma'am.
    First, one of the significant purposes behind us 
integrating all of our behavioral health programs into one 
single area is so that there is that cross-talk. So we are 
looking for that common thread to improve our value-based 
leadership training curriculum from the second you enter the 
military until the second you decide to walk out a better 
citizen.
    Next, the commandant of the Marine Corps has just 
directed--and it is starting with our sexual assault. He has 
just instituted a sexual assault prevention operational 
planning team consisting of 20 senior officers and 20 senior 
enlisted leaders headed up by a two-star general. And the 
purpose of it is to take a fresh, unconstrained look at the 
problem that sexual assault, the programs, the courses, and the 
initiatives that we presently have and how we are going to beat 
this back and get all the prevention to the left of the 
incident. And we are going to assess what we are doing 
presently and what we need to do to get to the left of the 
problem.
    The next thing is early this summer the commandant is 
holding a leadership symposium where he is bringing in all the 
three-star level leadership this summer to capture every single 
lesson learned over the last 10 years for the appropriate and 
the right way ahead.
    Mr. Wilson. Thank you very much, and we will proceed with 
Congressman Mike Honda of California.
    Mr. Honda. I want to add my thanks to Chairman Wilson and 
Davis and, to the gentlemen here, thank you for your service; 
and I appreciate, as Congresswoman Nydia Velazquez had 
indicated, your sentiments.
    But just by listening to the testimony I would think that 
this hearing is almost unnecessary. Each Service appears to 
denounce hazing and have safeguards to prevent it. Yet, hazing 
occurs, as evidenced by the recent incidents of Private Danny 
Chen, Lance Corporal Harry Lew, and aboard the Navy Vessel the 
Bonhomme Richard. In fact, Secretary Panetta just issued an 
anti-hazing directive during his holiday message in December.
    It keeps coming up. What I find extremely troubling is a 
lack of actual statistics on hazing. And how can anyone be 
convinced that a problem doesn't exist or our current policies 
are working if there is no method to monitor or evaluate it? 
And do any of the Services have a database or other monitoring 
system to record incidents of hazing and harassment?
    I read the reports. It appears that the Coast Guard was 
doing one that turned in some datum on the incidences and the 
outcomes. But what I found interesting was that--that needs to 
be talked about, I guess--in each category of--areas--suicide 
have no data available to determine hazing was or was not a 
contributing factor. You need to dig deeper into that and to 
see, you know, if there is any connection with the breakdown of 
the racial background--you know, white, Asian, black, Hispanic, 
others--looking into the dynamics of diversity, language, 
background, and cultural issues needs to be dug even a little 
bit deeper.
    How does each Service evaluate their current policies if 
they are working or not? Waiting to review policies after a 
slew of tragic cases is not an effective preventative approach. 
I know that and I have heard that abuse versus corrective 
training--I am not sure how corrective training is put 
together, or whether having these kinds of things looked at 
internally without an external review from other folks who are 
familiar with these kinds of practices----
    A few years ago, we were a part of the Port Hueneme 
training for the folks over there, both the civilians and 
enlisted folks. And we did a lot of work on racial interaction, 
and there was a lot of work to be done, within the ethnic 
groups and outside of the ethics groups. So I think that that 
kind of thing needs to be continued.
    The hazing of servicemen in a National Guard company 
assigned in Kosovo surfaced only last month after a private in 
the company lodged a formal complaint. Lieutenant General Mark 
Hertling, Commander of the U.S. Army Europe, commented that the 
private reporting the incident was courageous. In fact, the 
General said, for this guy to say what you guys are doing is 
wrong, courageous is an understatement.
    I definitely agree. However, it also speaks to how 
difficult for subordinate servicemen to report inappropriate 
behavior to the senior officers. I am not sure that we are not 
looking into that more, to say that this is what you do, this 
is the process, and not understand some of the barriers or some 
of the dynamics that enter into reporting. And as a vice 
principal of a middle school, you know, my kids say, I don't 
want to be known as a snitch. Translation: I will get my ass 
beaten.
    Okay, so I think that that is the kind of dynamics that you 
may want to look at. However, this must be nearly impossible 
during an extended forward operation that these folks are 
involved in.
    So what can be done to create an environment that allows 
for this type of reporting, both psychologically and physically 
being able to report that, whether that is through information 
or through sharing, whatever it is, but it still has to be an 
environment that is safe and confidential?
    What have you done to address culture sensitivity and to 
adopt a more intentional diversity and inclusion effort? And do 
hazing and harassment training, monitoring, and enforcement 
policies need to be uniform across the Services?
    And so those are the kinds of thoughts I have, and I 
appreciate the other members here and their thoughts about 
leadership in the smaller units. I think that that is part of 
that dynamics, too. So there is insulation between those who 
needed to be reported to and those who are victims or 
bystanders. I think that you have the sense of who the actors 
are. It is the interaction and the motivation or the 
encouragement or the sense of responsibility fulfilled that 
what you say you are instilling in each and every service 
person.
    Thank you, Mr. Chairman. I will wait for my response.
    And, by the way, Mr. Chairman, if these responses could be 
turned in in writing within a couple of weeks, that would be 
appreciated.
    Mr. Wilson. Congressman, actually, thank you very much. 
Because the time is up, except for one thing. I thought that 
you actually provided an extraordinary summary. And so for the 
record, for each of you, I thought the points of the 
Congresswoman were well made, and I know we would all look 
forward to receiving response to that question.
    And in consultation with our ranking member, again, I want 
to thank all of you for being here today, your commitment to 
our country, your dedication, and we look forward to working 
with you to address this issue in the future.
    We are adjourned.
    [Whereupon, at 2:08 p.m., the subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                             March 22, 2012

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 22, 2012

=======================================================================
      
                      Statement of Hon. Joe Wilson

           Chairman, House Subcommittee on Military Personnel

                               Hearing on

                         Hazing in the Military

                             March 22, 2012

    Today, the Military Personnel Subcommittee will receive 
testimony from the Services' senior enlisted advisors, 
concerning the Services' policies, training, and enforcement 
with respect to hazing.
    This is a topic that cannot be taken lightly. Hazing is a 
degrading act that must not be tolerated in the military or in 
our society. Unfortunately, it happens. The military services 
do have policies on hazing to ensure its members understand it 
is wrong and must not be tolerated. Hazing is contrary to the 
values of our volunteer force and affects the morale of units. 
It violates the professionalism achieved and expected by our 
military.
    The Subcommittee will hear from the senior enlisted 
leadership within the Services who are charged with keeping the 
service chiefs informed. These leaders are also responsible for 
ensuring the service member at the lowest level not only 
understands these policies, but also knows the courses of 
action service members should take to remedy the situation when 
policies are violated. This issue concerns me as a member of 
Congress, as a veteran myself, but especially as the father of 
four sons currently in the military where it was the best 
environment for what I know is the opportunity of military 
service.

                    Statement of Hon. Susan A. Davis

        Ranking Member, House Subcommittee on Military Personnel

                               Hearing on

                         Hazing in the Military

                             March 22, 2012

    I am pleased that the subcommittee is turning its focus to 
the important issue of hazing in the military. Over the past 
year, there has been a number of hazing incidents across the 
Services that have been brought to the public's attention.
    I am sure that we all agree that hazing is a serious and 
deplorable crime, which disrupts unit cohesion and reduces the 
morale of our men and women in uniform. Hazing, particularly in 
light of the current ongoing deployments and responsibilities 
that are being asked of our men and women in uniform, is a very 
serious matter.
    I am aware that most of the Services have policies that 
prohibit hazing, and harassment for that matter. But, I am 
interested to learn how the Services educate and train our 
military personnel, so that they know how to recognize hazing 
and harassment, what they should do to stop it or prevent its 
tolerance among the force. Do we even know how often these 
incidences occur? If incidences are not tracked, how does a 
Service recognize that this is an isolated incident or an 
epidemic?
    Parents and families who send their son or daughter to 
serve our Nation in uniform are already concerned about their 
health and safety given the operational requirements service 
members are facing. They should not have to worry about whether 
their child is being subjected to hazing or harassment as well. 
We need to restore the confidence in our families that the 
Services are doing all they can to prevent hazing from 
occurring among the force; hopefully, this hearing will be one 
step toward that goal.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 22, 2012

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 22, 2012

=======================================================================

      
            RESPONSE TO QUESTION SUBMITTED BY MS. VELAZQUEZ

    Sergeant Major Chandler. Yes. The Army has relationships with 
several organizations from across the Nation's diverse communities. 
These engagements allow the Army to communicate directly with community 
leaders, gain a better understanding of their culture, and more 
adequately address human relations challenges including, but not 
limited to hazing. The Army currently works with eight key Asian-
American and Pacific Islander organizations. Similarly, the Army is 
also engaged in dialog with the American-Islamic community which has 
provided useful culture based training packages. The overall objective 
of the Army's Diversity Outreach Strategy is to build stronger 
relationships with our Nation's diverse communities while increasing 
awareness. [See page 19.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 22, 2012

=======================================================================

      
                   QUESTION SUBMITTED BY MR. COFFMAN

    Mr. Coffman. 1) What was the disciplinary record for the eight 
sailors discharged for hazing on board the USS Bonhomme Richard? Was 
this the decision to discharge them made on the hazing charge alone? 
What article(s) of the UCMJ were they charged with? Were they taken to 
a court martial or were they a subject of a nonjudicial punishment?
    Master Chief Petty Officer West. 1) <bullet> What was the 
disciplinary record for the eight sailors discharged for hazing on 
board the USS BONHOMME RICHARD? Of the eight Sailors discharged for 
hazing, one had previous documentation for non-judicial punishment.
    <bullet>  Was the decision to discharge them made on the hazing 
charge alone? The Sailors were processed for administrative discharge 
on the basis of the hazing misconduct alone. Commanding Officer of 
BONHOMME RICHARD determined that the hazing misconduct met the 
requirements for mandatory administrative processing in accordance with 
Navy regulations (MILPERSMAN 1910-142, Separation by reason of 
misconduct--commission of a serious offense.)
    <bullet>  What article(s) of the UCMJ were they charged with? Seven 
of the eight Sailors were charged with violations of UCMJ Article 128 
(Assault) and Article 92 (Failure to Obey a Lawful General Order). The 
eighth sailor was charged only with Article 93 (Cruelty and 
Maltreatment) because the extent of his involvement was to lure 
subordinate victims into the berthing in order to be assaulted by 
others.
    <bullet>  Were they taken to a court martial or were they a subject 
of a nonjudicial punishment? The Commanding Officer of BONHOMME RICHARD 
held nonjudicial punishment for the Sailors involved. They were not 
taken to a court-martial. After imposing nonjudicial punishment, the 
Commanding Officer began immediate administrative separation processing 
for all eight sailors. All were processed using Notification Procedures 
with General (Under Honorable Conditions) being the least favorable 
characterization of service. All had less than six years of service and 
therefore were not entitled to administrative separation boards. All 
eight were given the opportunity to meet with an attorney prior to 
signing their administrative separation notifications and all eight met 
with attorneys. All were ultimately discharged with a characterization 
of service of General (Under Honorable Conditions).
                                 ______
                                 
              QUESTIONS SUBMITTED BY MS. CHU AND MR. HONDA
    Ms. Chu and Mr. Honda. 2) Just by listening to the testimonies, we 
would think that this hearing is almost unnecessary. Each Service 
appears to denounce hazing and has safeguards to prevent it. Yet, 
hazing occurs, as evident by the recent incidents of Private Danny 
Chen, Lance Corporal Harry Lew, and aboard the Navy vessel, Bonhomme 
Richard. In fact, Secretary Panetta issued an anti-hazing directive 
during his holiday message in December.
    What I find extremely troubling is the lack of actual statistics on 
hazing. How can anyone be convinced that a problem doesn't exist or 
current policies are working if there is no method to monitor and 
evaluate it? Do any of the Services have a database or other monitoring 
system to record the incidences of hazing and harassment? If so, how do 
you use the data you collect?
    Sergeant Major Chandler. 2) The Army does not have a central 
database dedicated to incidences of hazing and harassment. Commander's 
administrative actions are tracked at the local level; while criminal 
investigations are tracked in centralized law enforcement databases. 
The Army holds its commanders accountable for maintaining good order 
and discipline in their units. This includes investigating all 
allegations of misconduct upon notification to the chain of command. 
Depending upon the seriousness of the misconduct, Army law Enforcement 
conducts a criminal investigation or a commander at any level orders an 
administrative investigation pursuant to Army Regulation (AR) 15-6. 
Hazing is not an enumerated offense under the Uniform Code of Military 
Justice (UCMJ); therefore, misconduct that would violate the hazing 
prohibitions in AR 600-20 could be charged under Article 92 (violation 
of a lawful general regulation), Article 93 (cruelty and maltreatment), 
Article 128 (assault), Article 133 (conduct unbecoming an officer) or 
Article 134 (servicing discrediting conduct/conduct prejudicial to good 
order and discipline).
    Ms. Chu and Mr. Honda. 3) How does each Service evaluate that their 
current policies are working? Waiting to review policies after a slew 
of tragic cases is not effective prevention.
    Sergeant Major Chandler. 3) Our Hazing policy clearly states that 
Hazing is fundamentally in opposition to Army Values and is prohibited. 
AR 600-20 was comprehensively reviewed in March 2008. The Army's Hazing 
policy is currently under review by the Hazing Policy Assessment Team 
(HPAT). Part of the assessment is to review the training conduct in the 
Army and how well it supports the Army policy on Hazing.
    Ms. Chu and Mr. Honda. 4) The hazing of service members in a 
National Guard company assigned in Kosovo surfaced only last month 
after a private in the company lodged a formal complaint. Lieutenant 
General Mark Hertling, Commander of U.S. Army Europe, commented that 
the private reporting the incident was courageous. In fact, the General 
said, ``For this guy to say what you guys are doing is wrong, 
courageous is an understatement.'' We definitely agree. However, it 
also speaks to the difficulties for subordinate service members to 
report inappropriate behavior of their senior officers. This must be 
nearly impossible during extended forward deployments when only the 
unit's immediate senior officers are present. What can be done to 
create an environment that ensures both accessibility to higher level 
of command for reporting of incidents and the safety of the victims and 
whistleblowers? What type of support system is in place for victims of 
hazing and whistleblowers who report hazing?
    Sergeant Major Chandler. 4) Commanders are responsible for ensuring 
an environment free from reprisal and commanders are required to 
establish and implement a plan to protect complainants and others 
involved in the complaint from acts or threats of reprisal. At a 
minimum, a commander's plan for protecting complainants and others 
involved from reprisal must include specified meetings and discussions 
with the complainant, subject, named witnesses and selected members of 
the chain of command and co-workers. Retaliation or reprisals against 
Soldiers who file informal or formal complaints are prohibited (AR 600-
20, paragraph 5-12).
    In a deployed environment, commanders use town-hall type meetings 
and battlefield rotations with members of his staff, such as the Equal 
Opportunity Representative, Inspector General, and Chaplain. These 
teams talk to Soldiers and provide their assessment to the command on 
issues of concern.
    The support system for Soldiers who have reported incidents will 
vary, and include the Chain of command, Chaplain, Equal Opportunity, 
behavioral health, medical system, and Army Staff Judge Advocate.
    Ms. Chu and Mr. Honda. 5) What have you done to address cultural 
sensitivity and to adopt a more intentional diversity and inclusion 
effort? Have you outreached to communities for resources and guidance? 
If not, what plans do you have to do so?
    Sergeant Major Chandler. 5) The Army's ``Consideration of Others'' 
program currently provides foundational cultural sensitivity training. 
The Army Diversity Roadmap, issued in December 2010, addresses 
diversity training and education that will support inclusiveness 
throughout the Army. Preliminary diversity and inclusion competencies 
have been developed, along with corresponding knowledge, skills, and 
abilities. Training and education planning are in progress. The Army's 
Hazing Policy Assessment Team, which consists of members from HQDA, 
TRADOC and FORSCOM, is working closely with the Defense Equal 
Opportunity Management Institute (DEOMI) to develop diversity and 
inclusion specific training, both at the intuitional and tactical 
levels. The training is scheduled to be implemented during the 4th 
quarter of FY12.
    In January 2012, the Army implemented a new strategy for execution 
of diversity outreach on an Army-wide basis (including Reserve 
Components). Coordination efforts are through the Army Diversity 
Outreach Strategy Working Group, which facilitates a comprehensive 
approach that synchronizes efforts, including senior leader 
participation. The Army is emphasizing strong relationships with Asian 
American and Pacific Islander organizations. From those organizations, 
we have learned much about cultural considerations and community 
priorities. The Army is also significantly increasing participation in 
events and activities that support relationships and understanding. 
Similar outreach efforts are in place for other communities, including 
Hispanics, African Americans, and Native Americans. We also have a 
dialog with organizations that support American-Islamic relations. A 
number of organizations have offered support for improved cultural 
understanding.
    Ms. Chu and Mr. Honda. 6) Do hazing and harassment training, 
monitoring, and enforcement policies need to be uniform across the 
Services?
    Sergeant Major Chandler. 6) The definition of Hazing should be 
uniform across the Services. The training of these topic must be 
relevant to culture, force composition and specific to each Service. If 
we created a statutory definition of hazing under the Uniform Code of 
Military Justice, then enforcement of the policy would be uniform 
across the all Services. It is important to incorporate the cultural 
differences of each Service exhibits into training to make it 
effective.
    Ms. Chu and Mr. Honda. 7) Army Sergeant Major Chandler and USMC 
Sergeant Major Barrett testified their interest in creating a statutory 
definition of hazing in the Uniform Code of Military Justice (UCMJ). 
They implied that this would make it easier for them to track these 
incidents. Currently 44 States have anti-hazing laws and 31 States 
define hazing as a crime in their criminal code. We believe that 
defining hazing in the UCMJ would provide a strong disincentive against 
hazing and yet another tool for prosecutors to go after the 
perpetrators of hazing. What are the Services' assessments regarding a 
statutory definition for the Defense Department? What should a 
definition look like?
    Sergeant Major Chandler. 7) The Army Hazing Policy Assessment Team 
is considering whether to recommend that Army leadership support the 
creation of a statutory definition of hazing under the UCMJ. If that 
course of action is followed, the recommendation will be forwarded to 
the Joint Service Committee (JSC), which is comprised of subject matter 
experts in military justice from all Services. The JSC is charged with 
researching and drafting proposed revisions to the UCMJ
    Ms. Chu and Mr. Honda. 8) Representative Coffman expressed a 
failure of leadership in the unit level as the primary cause for these 
recent hazing cases. We understand that annual drop-down reviews of 
command are required by the Services. Do these reviews actually occur 
annually? Do they include reviews of commands within smallest units? 
What specifically are they reviewing? Do they include hazing incidents 
and hazing culture as part of the review? Do they include reviews to 
ensure that each command level has adequate hazing and harassment 
prevention training?
    Sergeant Major Chandler. 8) In accordance with AR 600-20, Paragraph 
6-i(13 and Appendix E3i(13) and Appendix E, the Army requires company 
level commanders to conduct Command Climate Assessments within 90 days 
of assuming command and then annually thereafter to gauge ``climate'' 
factors such as leadership, cohesion, morale, ease of ability to 
approach the command about issues, and the human relations environment. 
Surveys are important as provide a baseline that allows the command to 
develop action plans and implement program initiatives. The Army is 
modifying the frequency for the command climate survey so there would 
be an initial survey, then one at the six month point, and annually 
thereafter, allowing commanders to evaluate the effectiveness of their 
plans and adjust them necessary.
    The Defense Equal Opportunity Management Institute (DEOMI) provides 
a Command Climate Survey (DEOCCS) and it does not currently have hazing 
specific questions. DEOMI plans to release DEOCCS 4.0 in September 2012 
to include hazing, bullying, and toxic leadership questions.
    Ms. Chu and Mr. Honda. 9) Some of the Services stated that they 
require their personnel to report incidents of hazing and harassment. 
Where are these reporting requirements defined or documented? Also, 
what are the penalties for failure to report these incidents?
    Sergeant Major Chandler. 9) The Army does not have a specific 
reporting requirement for hazing allegations. The Hazing Policy 
Assessment Team is considering the adoption of such a reporting 
requirement.
    Ms. Chu and Mr. Honda. 10) During the hearing, each of the Services 
shared their latest statistics about hazing. However, the timeline for 
these numbers were inconsistent across all the branches and only 
included cases that went to a Courts Martial. How many cases of hazing 
occurred within each of the Services over the last 5 years, including 
both Courts Martial and Non-Judicial Punishment? How do these numbers 
break down by race and gender? What were the respective punishments for 
each instance?
    Sergeant Major Chandler. 10) In the last 5 calendar years, Army law 
enforcement investigated 37 hazing cases, which involved 128 subjects 
and 103 victims. Of the 128 subjects, 124 were male and 4 were female; 
103 were Caucasian; 18 were African-American; 4 were Asian; and 3 were 
of other/unknown origin. Of the 103 victims, 95 were male, 7 were 
female and 1 was unknown; 81 were Caucasian; 11 were African-American; 
3 were Hispanic; 3 were Asian; and 5 were of other/unknown origin. This 
number does not include allegations of hazing investigated through 
administrative investigations or commanders' inquiries.
    In the last 5 calendar years, the Army prosecuted 12 Soldiers at 
courts-martial for hazing-related offenses. Of the 12 accused, all were 
males; 5 were African-American; 5 were Caucasian; and 2 were Hispanic. 
One accused was acquitted. Of those convicted, the sentences ranged 
from a formal reprimand to reduction in rank, loss of pay and 
allowances, confinement and a punitive discharge.
    The Army does not maintain statistics of hazing-related offenses 
that resulted in non-judicial punishment.
    Ms. Chu and Mr. Honda. 11) Please provide the Committee with the 
relevant anti-hazing material and documents you use to train your 
service members.
    Sergeant Major Chandler. 11) Currently, the Army has no hazing 
specific training in our schools or in our units. Our Hazing Policy 
Assessment Team (HPAT) noted this as a gap during the analysis of our 
policy and training. Recommendations developed by the HPAT will be 
briefed to senior Army leadership for decision/and or approval.
    Ms. Chu and Mr. Honda. 12) Please describe the difference under 
regulation and in practice, for each Service, between appropriate 
``corrective training'' and hazing.
    Sergeant Major Chandler. 12) In the Army, corrective training is 
addressed in Army Regulation (AR) 600-20, paragraphs 2-18(c)(3) and 4-6 
and in AR 27-10, paragraph 3-3(c). It is defined as extra training or 
instruction used by commanders and noncommissioned officers in 
leadership roles to correct deficiencies. It must be directly related 
to the deficiency and must be oriented to improve the Soldier's 
performance in the problem area. Examples of corrective training 
include a squad leader ordering a Soldier to assemble and disassemble 
an M16 rifle repeatedly to ensure proficiency and speed, or to perform 
additional physical training to ensure the minimum standards for 
running endurance are achieved.
    Hazing is prohibited by Army Regulation 600-20, paragraph 4-20 and 
is defined as conduct whereby one military member unnecessarily causes 
another to be exposed to an activity that is cruel, abusive, oppressive 
or harmful.
    Ms. Chu and Mr. Honda. 13) When did your Service last update its 
hazing policy? Do you have any plans to review and update it if 
necessary? If your Service does not currently have an anti-hazing 
policy, are you considering instituting one?
    Sergeant Major Chandler. 13) Our policy on hazing clearly states 
that hazing is fundamentally in opposition with the Army Values and is 
prohibited. AR 600-20 was comprehensively reviewed in March 2008. The 
Hazing Policy Assessment Team is reviewing the current policy and will 
propose recommended changes that better define harassment and hazing.
    Ms. Chu and Mr. Honda. 14) Please provide data broken up according 
to race/ethnic heritage and gender, regarding the following: How many 
service members have died from non-combat injuries in the last 10 
years? Of these incidents, how many were classified as suicide, 
homicide, accident, etc. Also, please include data on deaths resulted 
from friendly fire. How many equal opportunity complaints have been 
received from service members within the last 10 years? Of these 
claims, how many were substantiated? What are the total numbers of 
members in each Service of the last 10 years?
    Sergeant Major Chandler. 14) In the last 10 years Casualty and 
Mortuary Affairs reports a total of 5,551 non-combat deaths. The Army 
considers any death of a Soldier due to a non-combat injury a 
significant loss, all efforts are made to investigate and put in place 
policies and procedures to avoid future losses. As part of that 
process, non-combat deaths of Soldiers are separated into 5 categories: 
1) accidents, 2) homicides, 3) illness, 4) self-inflicted (suicide) and 
5) undetermined.
    Of the total non-combat deaths, 2,614 were classified as accidents 
and are comprised of the following: 54 Asian/Pacific Islander (A/PI) 
males, 4 A/PI females, 24 American Indian/Alaska Native (AI/AN) males, 
5 AI/AN females, 379 Black males, 32 Black females, 1,787 White males, 
73 White females, 182 Hispanic males, 16 Hispanic females, 32 Other 
males, and 6 Other females.
    Homicides accounted for 286 of the total non-combat deaths and are 
comprised of the following: 4 A/PI males, 1 A/PI female, 3 AI/AN males, 
1 AI/AN female, 82 Black males, 21 Black females, 128 White males, 20 
White females, 18 Hispanic males, 6 Hispanic females, 1 Other male, and 
1 Other female.
    Illnesses accounted for 1,250 of the total non-combat deaths and 
are comprised of the following: 28 A/PI males, 7 A/PI females, 4 AI/AN 
males, 2 AI/AN females, 267 Black males, 73 Black females, 719 White 
males, 59 White females, 66 Hispanic males, 9 Hispanic females, and 76 
Other males.
    Self-inflicted deaths accounted for 1,193 of the total non-combat 
deaths and are comprised of the following: 46 A/PI males, 3 A/PI 
females, 17 AI/AN males, 3 AI/AN females, 139 Black males, 14 Black 
females, 839 White males, 37 White females, 78 Hispanic males, 2 
Hispanic females, 13 Other males, and 2 Other females.
    Of the total non-combat deaths, 135 were classified as undetermined 
and are comprised of the following: 3 A/PI males, 1 AI/AN male, 18 
Black males, 3 Black females, 92 White males, 14, White females, 2 
Hispanic males, and 2 Other males.
    Currently 34 of the total non-combat deaths are pending 
determination and are comprised of the following: 1 A/PI male, 5 Black 
males, 1 Black female, and 27 White males.
    As friendly fire deaths take place in combat, they are not included 
in the categories of non-combat deaths. There were 27 deaths in the 
Army that resulted from friendly fire since 2002. Of those deaths one 
(1) was identified as A/PI male; one (1) AI/AN male; and 25 White 
males.
    There were a total of 1,641 Equal Opportunity complaints from FY02 
through FY11. The complaints were comprised of the following: 24 A/PI 
males (four substantiated), 51 A/PI females (17 substantiated), 4 AI/AN 
males (three substantiated), 15 AI/AN females (nine substantiated), 277 
Black males (54 substantiated), 479 Black females (143 substantiated), 
113 White males (40 substantiated), 426 White females (207 
substantiated), 61 Hispanic males (16 substantiated), 124 Hispanic 
females (44 substantiated), 23 Other males (six substantiated), 28 
other females (12 substantiated), three Unknown males (one 
substantiated), and 13 Unknown females (six substantiated).
    Ms. Chu and Mr. Honda. 15) The Army's Hazing Task Force was 
recently created to review its hazing policies. What is it directed to 
review and produce? Is it authorized to make any recommended changes to 
policies? If not, then what are the follow-up procedures to act on any 
recommendations? Does it outreach to the public for comment or advice? 
Also, please provide periodic updates on the Task Force's progress and 
findings.
    Sergeant Major Chandler. 15) The Hazing Policy Assessment Team 
(HPAT) was directed to employ a multi-disciplinary team from across the 
Army that will conduct a gap analysis of Army Regulation (AR) 600-20, 
Army Command Policy, paragraph 4-20 that prohibits hazing. The team 
will review the definition of hazing and the policy, collect and review 
pertinent data, evaluate training and training execution, and then 
present written assessments and recommendations regarding policies and 
training to Army Senior Leadership. To date, the HPAT has not sought 
public comment or advice for its recommendations.
    Members of the team are from Assistant Secretary of the Army 
(Manpower & Reserve Affairs); G-1, Human Resource Policy Directorate 
(HRPD); Sexual Harassment/Assault Response and Prevention (SHARP); G-3/
5/7 Training; Office Provost Marshal General; Office of The Judge 
Advocate General (OTJAG); Office of the Chief of Chaplains (OCCH); The 
Inspector General (IG); Office of Congressional Legislative Liaison 
(OCLL); Forces Command (FORSCOM); Training and Doctrine Command 
(TRADOC); The National Guard; The Army Reserves; and, the Army Research 
Institute (ARI). The Defense Equal Opportunity Management Institute 
(DEOMI) volunteered to participate.

    Ms. Chu and Mr. Honda. 16) Just by listening to the testimonies, we 
would think that this hearing is almost unnecessary. Each Service 
appears to denounce hazing and has safeguards to prevent it. Yet, 
hazing occurs, as evident by the recent incidents of Private Danny 
Chen, Lance Corporal Harry Lew, and aboard the Navy vessel, Bonhomme 
Richard. In fact, Secretary Panetta issued an anti-hazing directive 
during his holiday message in December.
    What I find extremely troubling is the lack of actual statistics on 
hazing. How can anyone be convinced that a problem doesn't exist or 
current policies are working if there is no method to monitor and 
evaluate it? Do any of the Services have a database or other monitoring 
system to record the incidences of hazing and harassment? If so, how do 
you use the data you collect?
    Master Chief Petty Officer West. 16) The Navy has not historically 
maintained statistics on hazing. However, hazing has been added as a 
new category in our Quarterly Criminal Activity, Disciplinary 
Infractions and Courts-Martial Report (QCAR), requiring subordinate 
authorities to report hazing statistics to the General Court-Martial 
Convening Authority for consolidation and further forwarding to Office 
of the Judge Advocate General, where the statistics will be kept.
    Navy is developing a database called Military Equal Opportunity 
Network (MEONet), which will be an online, web-based program and 
database that will be used to assist Navy Leadership in recording the 
number of harassment and hazing incidents. It will provide leadership 
with an additional means to identify trends and implement corrective 
actions.
    Ms. Chu and Mr. Honda. 17) How does each Service evaluate that 
their current policies are working? Waiting to review policies after a 
slew of tragic cases is not effective prevention.
    Master Chief Petty Officer West. 17) Navy evaluates the hazing 
policy by reviewing trends of reported hazing incidents. We also review 
results from command climate assessments, feedback from Equal 
Opportunity Advisors, and reports from Navy Inspector General visits. 
Additionally, senior Navy leadership (officer and enlisted) conducts 
continuous proactive engagement with command teams and Sailors at units 
and installations around the world to discuss policies pertaining to 
command readiness/climate. Through observation and interactive two-way 
dialogue, we gather timely feedback on the effectiveness of policies 
and determine if changes are required. Hazing will continue to be a 
part of those discussions and a focus of our training.
    Ms. Chu and Mr. Honda. 18) The hazing of service members in a 
National Guard company assigned in Kosovo surfaced only last month 
after a private in the company lodged a formal complaint. Lieutenant 
General Mark Hertling, Commander of U.S. Army Europe, commented that 
the private reporting the incident was courageous. In fact, the General 
said, ``For this guy to say what you guys are doing is wrong, 
courageous is an understatement.'' We definitely agree. However, it 
also speaks to the difficulties for subordinate service members to 
report inappropriate behavior of their senior officers. This must be 
nearly impossible during extended forward deployments when only the 
unit's immediate senior officers are present. What can be done to 
create an environment that ensures both accessibility to higher level 
of command for reporting of incidents and the safety of the victims and 
whistleblowers? What type of support system is in place for victims of 
hazing and whistleblowers who report hazing?
    Master Chief Petty Officer West. 18) By Department of the Navy 
policy, any allegation of hazing must be reported to the Commanding 
Officer, who must in turn report any substantiated incident to the 
Chief of Naval Operations. Navy leaders are also responsible for 
ensuring that victims, witnesses, and whistleblowers (whether military 
or civilian) are afforded their rights under applicable regulations. 
Victims and witnesses of hazing also qualify for services under the 
Victim/Witness Assistance Program (VWAP). VWAP is designed to ensure 
victims and witnesses are afforded their rights throughout the criminal 
justice process--from initial contact by investigators through final 
disposition. Additionally, service providers (e.g., Family Service 
Center personnel, family advocacy counselors, health care personnel, 
chaplains, and legal assistance attorneys) provide services to victims 
and witnesses, to include referrals, as necessary.
    Ms. Chu and Mr. Honda. 19) What have you done to address cultural 
sensitivity and to adopt a more intentional diversity and inclusion 
effort? Have you outreached to communities for resources and guidance? 
If not, what plans do you have to do so?
    Master Chief Petty Officer West. 19) The Navy has taken steps via 
our Equal Opportunity (EO) program and command climate program to 
ensure everyone respects each other and feels they are valued in a more 
inclusive workplace. Through changes to EO policy, Navy reinforces its 
commitment to ensuring a safe, professional environment for our 
Sailors.
    Additionally, the Navy continues to demonstrate its commitment to 
respecting cultural sensitivities through training events like our 
Diversity Leadership Symposium, where we directly engage and educate 
our deckplate leaders on current best practices. The health and welfare 
our Sailors will always remain at the forefront, and we continue to 
develop new and innovative training methods to ensure our Sailors feel 
they are valued and respected at all times.
    The Navy also conducts heritage month activities and observances of 
nine specific diversity-related groups, events, and individuals 
honoring the many contributions made and those that continue to be made 
in our Navy. Reflecting on these contributions honors the diversity of 
thoughts, ideas, and competencies in our Navy today. Current 
communication partnerships with organizations such as the Defense Equal 
Opportunity Management Institute (DEOMI) continue to provide resources 
and guidance for our Sailors, in addition to our own internal efforts.
    The Navy has an ongoing effort to identify and leverage talent and 
is working to develop enduring relationships with over 60 nationally 
recognized affinity groups. The Navy commits time and resources by 
attending various conferences to gain insight and understanding into 
the issues facing underrepresented/minority groups.
    Ms. Chu and Mr. Honda. 20) Do hazing and harassment training, 
monitoring, and enforcement policies need to be uniform across the 
Services?
    Master Chief Petty Officer West. 20) I don't believe they do. While 
the policy that prohibits hazing is uniform across the Department of 
Defense, the inherent differences between the individual Services 
warrant specific and tailored approaches to training, monitoring, and 
enforcement within each branch. The Navy has its own unique 
organizational structures, service culture, and traditions, and we 
adjust our response based upon these factors. We are always seeking to 
improve our ability to prevent, identify, and take immediate action to 
address hazing.
    Ms. Chu and Mr. Honda. 21) Army Sergeant Major Chandler and USMC 
Sergeant Major Barrett testified their interest in creating a statutory 
definition of hazing in the Uniform Code of Military Justice (UCMJ). 
They implied that this would make it easier for them to track these 
incidents. Currently 44 States have anti-hazing laws and 31 States 
define hazing as a crime in their criminal code. We believe that 
defining hazing in the UCMJ would provide a strong disincentive against 
hazing and yet another tool for prosecutors to go after the 
perpetrators of hazing. What are the Services' assessments regarding a 
statutory definition for the Defense Department? What should a 
definition look like?
    Master Chief Petty Officer West. 21) The Department of the Navy 
uses a standard definition of hazing which we believe allows sufficient 
flexibility and autonomy for commanders to act based upon their 
assessment of the circumstances and their interpretation as to whether 
a given act constitutes hazing under that definition.
    Secretary of the Navy Instruction 1610.2a defines hazing as any 
conduct whereby a military member or members, regardless of Service or 
rank, without proper authority causes another military member or 
members, regardless of Service or rank, to suffer or be exposed to any 
activity which is cruel, abusive, humiliating, oppressive, demeaning, 
or harmful. Soliciting or coercing another to perpetrate any such 
activity is also considered hazing. Hazing need not involve physical 
contact among or between military members; it can be verbal or 
psychological in nature. Actual or implied consent to acts of hazing 
does not eliminate the culpability of the perpetrator. Hazing can 
include, but is not limited to, the following: playing abusive or 
ridiculous tricks; threatening or offering violence or bodily harm to 
another; striking; branding; taping; tattooing; shaving; greasing; 
painting; requiring excessive physical exercise beyond what is required 
to meet standards; ``pinning''; ``tacking on''; ``blood wings''; or 
forcing or requiring the consumption of food, alcohol, drugs, or any 
other substance. Currently, hazing can be charged in a variety of ways 
and prosecuted at general, special, or summary court-martial. Possible 
charges include Uniform Code of Military Justice Article 92 (violation 
of a lawful general order), Article 93 (cruelty and maltreatment), and 
Article 128 (assault).
    Navy policy further provides our leaders and service members 
guidance on what is not considered hazing. Under Department of the Navy 
policy, hazing does not include command-authorized or operational 
activities; the requisite training to prepare for such missions or 
operations; administrative corrective measures; extra military 
instruction; athletics events, command-authorized physical training, 
contests or competitions and other similar activities that are 
authorized by the chain of command.
    Ms. Chu and Mr. Honda. 22) Representative Coffman expressed a 
failure of leadership in the unit level as the primary cause for these 
recent hazing cases. We understand that annual drop-down reviews of 
command are required by the Services. Do these reviews actually occur 
annually? Do they include reviews of commands within smallest units? 
What specifically are they reviewing? Do they include hazing incidents 
and hazing culture as part of the review? Do they include reviews to 
ensure that each command level has adequate hazing and harassment 
prevention training?
    Master Chief Petty Officer West. 22) Department of the Navy is 
unfamiliar with the term ``drop-down reviews.'' However, the Navy 
utilizes Command Climate Assessments which are administered via the 
Defense Equal Opportunity Management Institute. The questions in the 
Command Climate Assessment survey are Service specific and each command 
may tailor up to ten additional, locally-prepared and focused questions 
to the survey for their command. The information provided by command 
members is retained in an anonymous format and their verbatim comments 
are provided to the Commanding Officer and the Command Assessment Team 
who will work together to resolve command climate concerns. Also, an 
executive summary of the Command Climate Assessment is provided to the 
Commanding Officer's Immediate Superior In Command. This allows the 
senior officer to maintain awareness of the climates in the units under 
his/her command.
    Command Climate Assessments are required to be performed annually. 
Specifically, they are conducted within 90 days of assumption of 
command of the new Commanding Officer and annually thereafter. Our 2011 
annual review showed a 98% completion rate of required Command Climate 
Assessments in CY2011.
    Every command, regardless of size, is required to conduct Command 
Climate Assessments.
    A Command Climate Assessment seeks to determine the ``health'' and 
functional effectiveness of an organization by examining such factors 
as morale, teamwork, and communication and is accomplished using an 
anonymous survey of command members and a minimum of two of the 
following assessment methodologies; review of records and reports, 
individual interviews, observations, focus groups, and other methods 
deemed appropriate by the commander. The survey focuses on four primary 
areas: Military Equal Opportunity, Civilian Equal Employment 
Opportunity, Sexual Assault Prevention and Response, and Organizational 
Effectiveness.
    The survey does not contain specific questions on hazing incidents 
and hazing culture. However, Commanders have the capability to select 
up to an additional 10 locally-developed questions and five short-
answer questions and these elements can include inquiries about hazing, 
command culture, etc. Additionally, service members can write their own 
comments on any personal concern and these responses are provided 
verbatim to the Commander and the Command Assessment Team.
    Department of Navy policies direct that service members receive 
training on hazing both on an annual basis and each time a service 
member reports to a new duty station. Training materials are developed 
by the Navy's Center for Personal and Professional Development and are 
available to commands and individuals alike via the Navy Knowledge 
Online website.
    The annual requirement for commands to conduct hazing training is 
driven by Secretary of the Navy Instruction 1610.2A. Additionally, in 
the e-Learning course ``Navy Policy on Hazing'' the service member 
learns the definition of hazing; identifies examples of hazing; 
identifies components of the Navy Policy on Hazing; identifies 
consequences of violating the Navy Policy on Hazing; and identifies 
resulting actions when hazing is reported.
    Additionally, Navy requires that within the first 30 days of 
reporting to a new command, or within 3 drill weekends for reservists, 
commands provide service members Navy Pride and Professionalism 
training which includes the Navy policy on hazing.
    All general Navy training is monitored and managed within each 
command.
    Ms. Chu and Mr. Honda. 23) Some of the Services stated that they 
require their personnel to report incidents of hazing and harassment. 
Where are these reporting requirements defined or documented? Also, 
what are the penalties for failure to report these incidents?
    Master Chief Petty Officer West. 23) The requirement to report acts 
of hazing is outlined in the Department of the Navy's hazing 
instruction. Failure by witnesses to report a hazing incident is 
punishable under appropriate articles of the Uniform Code of Military 
Justice (UCMJ), including Article 92 (Failure to obey an order or 
regulation), and Service regulations which mandate the reporting of 
crimes.
    Ms. Chu and Mr. Honda. 24) During the hearing, each of the Services 
shared their latest statistics about hazing. However, the timeline for 
these numbers were inconsistent across all the branches and only 
included cases that went to a Courts Martial. How many cases of hazing 
occurred within each of the Services over the last 5 years, including 
both Courts Martial and Non-Judicial Punishment? How do these numbers 
break down by race and gender? What were the respective punishments for 
each instance?
    Master Chief Petty Officer West. 24) The DON does not have the 
specific information Congresswoman Chu seeks.
    Hazing is not a stand-alone offense that can be charged under the 
Uniform Code of Military Justice (UCMJ). Under Navy regulations, hazing 
is defined as any conduct whereby a military member or members, 
regardless of Service or rank, without proper authority causes another 
military member or members, regardless of Service or rank, to suffer or 
be exposed to any activity which is cruel, abusive, humiliating, 
oppressive, demeaning, or harmful.
    Under the UCMJ hazing can be charged as follows:
    <bullet>  Article 92, UCMJ, Violation of a Lawful General Order. 
Maximum punishment: punitive discharge, two years of confinement, total 
forfeitures of pay and allowances, and reduction to paygrade E-1.
    <bullet>  Article 93, UCMJ, Cruelty and Maltreatment. This article 
may apply when the accused is in a position of authority over another 
person (such that the accused can issue orders to that person), and the 
accused is cruel toward, or oppresses, or maltreats that person. 
Maximum punishment: punitive discharge, one year confinement, total 
forfeitures of pay and allowances, and reduction to paygrade E-1.
    <bullet>  Article 128, UCMJ, Assault. Depending on the 
circumstances and method of assault, the crime may be prosecuted as 
simple assault; assault consummated by a battery, or aggravated 
assault. Maximum punishment for aggravated assault (most serious): 
punitive discharge, eight years confinement, total forfeitures of pay 
and allowances, and reduction to paygrade E-1.
    Hazing-related offenses can be prosecuted at general, special or 
summary courts-martial or service members can receive nonjudicial 
punishment for conduct amounting to hazing. While Navy commanders have 
been required to report incidents of hazing for years, our statistics 
have focused on the tracking cases by Article number and have not 
specifically tracked the disposition of hazing allegations. Beginning 
this year, however, the Navy and Marine Corps have begun tracking the 
disposition of hazing offenses. Our databases do not presently capture 
offender race demographics.
    Ms. Chu and Mr. Honda. 25) Please provide the Committee with the 
relevant anti-hazing material and documents you use to train your 
service members.
    Master Chief Petty Officer West. 25) The requested material was 
forwarded to the House Armed Services Committee on, or about, February 
13, 2012, in response to an earlier committee request for information.
    Ms. Chu and Mr. Honda. 26) Please describe the difference under 
regulation and in practice, for each Service, between appropriate 
``corrective training'' and hazing.
    Master Chief Petty Officer West. 26) Secretary of the Navy 
Instruction 1610.2a defines hazing as any conduct whereby a military 
member or members, regardless of Service or rank, without proper 
authority causes another military member or members, regardless of 
Service or rank, to suffer or be exposed to any activity which is 
cruel, abusive, humiliating, oppressive, demeaning, or harmful.
    Soliciting or coercing another to perpetrate any such activity is 
also considered hazing. Hazing need not involve physical contact among 
or between military members; it can be verbal or psychological in 
nature. Actual or implied consent to acts of hazing does not eliminate 
the culpability of the perpetrator. Hazing can include, but is not 
limited to, the following: playing abusive or ridiculous tricks; 
threatening or offering violence or bodily harm to another; striking; 
branding; taping; tattooing; shaving; greasing; painting; requiring 
excessive physical exercise beyond what is required to meet standards; 
``pinning''; ``tacking on''; ``blood wings''; or forcing or requiring 
the consumption of food, alcohol, drugs, or any other substance.
    While the specific term ``corrective training'' is not included in 
the lexicon of Navy hazing policy, hazing does not include command-
authorized or operational activities; the requisite training to prepare 
for such missions or operations; administrative corrective measures; 
extra military instruction; athletics events, command-authorized 
physical training, contests or competitions and other similar 
activities that are authorized by the chain of command.
    Ms. Chu and Mr. Honda. 27) When did your Service last update its 
hazing policy? Do you have any plans to review and update it if 
necessary? If your Service does not currently have an anti-hazing 
policy, are you considering instituting one?
    Master Chief Petty Officer West. 27) Our current policy on hazing 
was written in 2005. We completed a review of this policy in 2012 and 
found the policy to be clear and unambiguous.
    Ms. Chu and Mr. Honda. 28) Please provide data broken up according 
to race/ethnic heritage and gender, regarding the following: How many 
service members have died from non-combat injuries in the last 10 
years? Of these incidents, how many were classified as suicide, 
homicide, accident, etc. Also, please include data on deaths resulted 
from friendly fire. How many equal opportunity complaints have been 
received from service members within the last 10 years? Of these 
claims, how many were substantiated? What are the total numbers of 
members in each Service of the last 10 years?
    Master Chief Petty Officer West. 28) The accompanying table 
provides requested data on the number of Navy non-hostile fatalities 
over the past 10 years, broken out by casualty category as well as race 
and ethnicity. I am unable to offer data on friendly fire incidents 
since that information is not centrally captured as a sortable data 
field in the personnel casualty reporting process under Department of 
Defense Instruction 1300.18.
    Since 2002, the Navy Equal Opportunity (EO) office has received 
1,317 complaints, 563 of which were substantiated.
    During the last 10 years there have been 829,206 individuals in the 
Navy.
    [The information referred to is retained in the committee files and 
can be viewed upon request.]
    Ms. Chu and Mr. Honda. 29) Just by listening to the testimonies, we 
would think that this hearing is almost unnecessary. Each Service 
appears to denounce hazing and has safeguards to prevent it. Yet, 
hazing occurs, as evident by the recent incidents of Private Danny 
Chen, Lance Corporal Harry Lew, and aboard the Navy vessel, Bonhomme 
Richard. In fact, Secretary Panetta issued an anti-hazing directive 
during his holiday message in December.
    What I find extremely troubling is the lack of actual statistics on 
hazing. How can anyone be convinced that a problem doesn't exist or 
current policies are working if there is no method to monitor and 
evaluate it? Do any of the Services have a database or other monitoring 
system to record the incidences of hazing and harassment? If so, how do 
you use the data you collect?
    Master Chief Petty Officer West. 29) The Discrimination and Sexual 
Harassment (DASH) database will serve as the model for reporting ALL 
hazing incidents. This database will capture substantiated and 
unsubstantiated incidents of hazing. The Equal Opportunity and 
Diversity Management Branch, Headquarters Marine Corps will use this 
information to modify training and education requirements as necessary 
across the Marine Corps. This reporting/tracking process will be the 
tool the unit commander will use to report all incidents of hazing.

    Ms. Chu and Mr. Honda. 30) How does each Service evaluate that 
their current policies are working? Waiting to review policies after a 
slew of tragic cases is not effective prevention.
    Sergeant Major Barrett. 30) The Marine Corps has numerous tools 
available to evaluate the effectiveness of policies, and keep the 
finger on the pulse of the command climate. For example, Marines are 
given the opportunity to provide additional comments during Command 
Climate, Retention, and Exit Surveys, which are conducted at different 
intervals throughout a Marine's service. Alleged criminal offenses are 
reviewed and investigated. Marines also have the right to ``Request 
Mast'', to directly communicate grievances to, or seek assistance from, 
their commanding officers or Officer in Charge. Additionally, Marines 
can contact the Inspector General's (IG) office through the IG hotline, 
which receives and handles allegations regarding fraud, waste, abuse, 
mismanagement or misconduct. The Marine Corps Order on Hazing was 
recently updated (1 Feb 2012) to ensure all Marines understand the 
definition of hazing and it deteriorating effects. The Marine Corps is 
taking a comprehensive approach with the establishment of a hazing 
incident tracking system (DASH) along with a 24 hour Sexual Harassment 
and Hazing Advice Line which will provide available resources and 
information to victims. All Marine units undergo regular inspections 
per Marine Corp Order 5430.1, Inspector General Program (IGP). The 
Inspector General of the Marine Corps oversees the program to ensure 
inspections are conducted throughout the Service, that all units are in 
compliance with Marine Corps policy and that the policies are current 
and relevant. There are 122 functional areas with checklist which help 
assess compliance and mission readiness. However, there are currently 
33 ``core'' functional areas that all units are assessed regardless of 
their mission. The fundamental mission of inspectors is to teach, train 
and enhance the operational readiness of the unit and Marine Corps.
    Currently, the new Marine Corps Order 1700.28A, 1 Feb 2012. Hazing 
does not have a functional area checklist developed. Vetting a new 
functional area checklist for hazing is currently underway. Once a 
functional area checklist is developed, hazing will be added to the 
``core'' (or mandatory) list of areas to be inspected across the Marine 
Corps.
    Ms. Chu and Mr. Honda. 31) The hazing of service members in a 
National Guard company assigned in Kosovo surfaced only last month 
after a private in the company lodged a formal complaint. Lieutenant 
General Mark Hertling, Commander of U.S. Army Europe, commented that 
the private reporting the incident was courageous. In fact, the General 
said, ``For this guy to say what you guys are doing is wrong, 
courageous is an understatement.'' We definitely agree. However, it 
also speaks to the difficulties for subordinate service members to 
report inappropriate behavior of their senior officers. This must be 
nearly impossible during extended forward deployments when only the 
unit's immediate senior officers are present. What can be done to 
create an environment that ensures both accessibility to higher level 
of command for reporting of incidents and the safety of the victims and 
whistleblowers? What type of support system is in place for victims of 
hazing and whistleblowers who report hazing?
    Sergeant Major Barrett. 31) The Marine Corps has numerous tools 
available to create an environment to ensure accessibility to the chain 
of command. For example, Marines are given the opportunity to provide 
additional comments during Command Climate, Retention, and Exit 
Surveys, which are conducted at different intervals throughout a 
Marine's service. Alleged criminal offenses are reviewed and 
investigated. Marines also have the right to ``Request Mast'', to 
directly communicate grievances to, or seek assistance from; their 
commanding officers or Officer in Charge. Additionally, Marines can 
contact the Inspector General's (IG) office through the IG hotline, 
which receives and handles allegations regarding fraud, waste, abuse, 
mismanagement or misconduct. The Marine Corps is going to implement a 
24 hour Sexual Harassment and Hazing Advice Line which will provide 
available resources and information to victims. Furthermore, the Marine 
Corps has 37 Equal Opportunity Advisors (EOA) assigned to Major 
Subordinate Commands (MSC), Marines can use to seek guidance and 
information. The EOA is a special staff member for the commanding 
general/commander. The EOA is trained on all Department of Defense 
Equal Opportunity policies, information related to cultural and ethnic 
diversity, contemporary issues, and discrimination to include sexual 
harassment prevention training. The Marine Corps has added ``hazing'' 
to the EOAs list of responsibilities and will be managed by the Equal 
Opportunity and Diversity Management Branch, Headquarters Marine Corps.
    The Commandant of the Marine Corps (CMC), through ALMAR 05/12, 
reminded all Marines that Hazing is contrary to our Core Values of 
Honor, Courage, and Commitment. With the focus on leadership, the CMC 
issued a direct and personal message to commanders to ensure all 
Marines are treated with dignity, care, and respect, and to be ever 
vigilant for signs of hazing within our ranks and that there is no 
environment to condone hazing. Marines have available resources to 
report incidents without fear of reprisal. The Marine Corps is 
currently in the process establishing additional resources to provide 
victim assistance services to victims of hazing consistent with the 
victim assistance standards. A sexual harassment/hazing advice line and 
the Prevention of Sexual Harassment (POSH) are currently being 
established in conjunction with the Marine Corps Hazing Reporting 
Process.
    Ms. Chu and Mr. Honda. 32) What have you done to address cultural 
sensitivity and to adopt a more intentional diversity and inclusion 
effort? Have you outreached to communities for resources and guidance? 
If not, what plans do you have to do so?
    Sergeant Major Barrett. 32) The Commandant of the Marine Corps 
(CMC) has directed a comprehensive review of the Marine Corps' current 
diversity posture and issues in his Commandant's Planning Guidance of 
2010. A draft Diversity Campaign Plan is currently in staffing. The 
mission and intent is to improve diversity across the Marine Corps 
while maintaining the Corps' dedication to developing and maximizing 
the potential of every Marine and strengthening our connectedness to 
the American public. The following goals will assist in the successful 
achievement of the mission:
    (1) Improve diversity across the Marine Corps. (2) Ensure each 
Marine is provided equitable opportunities for professional development 
and career progression. (3) Ensure every Marine understands the 
importance of having a diverse force. (4) Institutionalize diversity 
and inclusive policies and practices across the Marine Corps.
    In addition, the Marine Corps participates in affinity group 
conferences annually, i.e. Black Engineer of the Year Awards (BEYA), 
Women of Color in STEM (WOC-STEM), Association of Naval Services 
Officers (ANSO), and National Naval Officer Association (NNOA). These 
conferences foster positive relationships between the Marine Corps and 
the American people. The conferences also provide opportunities to 
increase awareness of the diversity within our Corps and the career 
opportunities offered.
    Ms. Chu and Mr. Honda. 33) Do hazing and harassment training, 
monitoring, and enforcement policies need to be uniform across the 
Services?
    Sergeant Major Barrett. 33) The policy and definition for hazing 
and harassment should be standardized across the Services to ensure the 
message is consistent. The training, monitoring, and enforcement of 
those policies need to be maintained by the individual Service.
    The Marine Corps provides rank appropriate training and education 
on Marine Corps Values and Values Based Training (VBT) subjects that 
directly influence the conduct and ethical behavior of Marines. All 
courses stress VBT and Leadership as a leadership imperative and 
emphasize the establishment of proper command climate toward VBT the 
key to success for an effective VBT/L program. Hazing, Sexual Assault 
Prevention and Response, Substance Abuse, Fraternization, and Sexual 
Harassment are the VBT subjects that must be continually emphasized in 
the Operating Force and Supporting Establishment. Marine Corps Bulletin 
(MCBUL) 1500, Annual and Ancillary Training and Marine Corps Common 
skills requires the annual sustainment of all of those VBT subjects. 
These requirements ensure there is no gap between the schoolhouse and 
Operating Force.
    Marine Corps recruits in the Delayed Entry Program begin receiving 
instructions on Ethics and Core Values training. Students in the Entry 
Level Training pipeline receive training on the Marine Corps policy for 
each one of the VBT subjects at the MCRDs and then receive 
reinforcement training at MCT and the MOS producing school. Students in 
career progression courses at MOS schools and students in PME schools, 
both officer and enlisted, receive rank appropriate training and 
education on the VBT subjects, how to conduct a VBT guided discussion 
and, ethical leadership training.
    Ms. Chu and Mr. Honda. 34) Army Sergeant Major Chandler and USMC 
Sergeant Major Barrett testified their interest in creating a statutory 
definition of hazing in the Uniform Code of Military Justice (UCMJ). 
They implied that this would make it easier for them to track these 
incidents. Currently 44 States have anti-hazing laws and 31 States 
define hazing as a crime in their criminal code. We believe that 
defining hazing in the UCMJ would provide a strong disincentive against 
hazing and yet another tool for prosecutors to go after the 
perpetrators of hazing. What are the Services' assessments regarding a 
statutory definition for the Defense Department? What should a 
definition look like?
    Sergeant Major Barrett. 34) Hazing is defined in the Marine Corps 
in Marine Corps Order 1700.28A. This definition [``any conduct whereby 
a military member or members, regardless of Service or rank, without 
proper authority causes another military member or members, regardless 
of Service or rank, to suffer or be exposed to any activity which is 
cruel, abusive, humiliating, oppressive, demeaning, or harmful.''] is 
identical to that prescribed for the Department of the Navy in 
SECNAVINST 1610.2A.
    Violations of the Marine Corps policy prohibiting hazing subject 
those involved to potential disciplinary action under Article 92 
(Failure to obey order or regulation) of the Uniform Code of Military 
Justice (UCMJ). Article 92, UCMJ carries with it a maximum punishment 
(at General Court-Martial) of two years of confinement, total 
forfeitures, and a dishonorable discharge. ``Hazing,'' however, may 
include conduct proscribed by other Articles under the UCMJ. Therefore, 
those who have engaged in acts of hazing may also be charged under 
other applicable Articles to include, but not limited to, Article 93 
(Cruelty and maltreatment) or Article 128 (Assault).
    One potential benefit of creating a statutory definition of hazing 
would be consistency across the Services. While the Navy and Marine 
Corps definitions are identical, the Army definition does differ 
slightly [``any conduct whereby one military member or employee, 
regardless of Service or rank, unnecessarily causes another military 
member or employee, regardless of Service or rank, to suffer or be 
exposed to an activity that is cruel, abusive, oppressive, or 
harmful.''].
    Ms. Chu and Mr. Honda. 35) Representative Coffman expressed a 
failure of leadership in the unit level as the primary cause for these 
recent hazing cases. We understand that annual drop-down reviews of 
command are required by the Services. Do these reviews actually occur 
annually? Do they include reviews of commands within smallest units? 
What specifically are they reviewing? Do they include hazing incidents 
and hazing culture as part of the review? Do they include reviews to 
ensure that each command level has adequate hazing and harassment 
prevention training?
    Sergeant Major Barrett. 35) All questions will be addressed 
individually.
    Question: We understand that annual drop-down reviews of command 
are required by the Services. Do these reviews actually occur annually? 
Answer: While Marine Corp Order 5430.1, Inspector General Program (IGP) 
prescribes how annual inspections are to be conducted, Marine Corps 
Order 5040.6I Marine Corps Inspections and Readiness Assessments 
further details administration of the process. Furthermore, there are 
two kinds of inspections conducted annually, first is the Commanding 
General Inspection Program where all units under the cognizance of a 
General Officer are systematically inspected, second are all units not 
commanded by a General Officer participate in the Unit Inspection 
Program which is also assess under the Inspector General of the Marine 
Corps.
    Question: What specifically are they reviewing? Answer: Unit 
Inspectors assess Marine Corps policy compliance by using functional 
area checklist. Functional area checklists contain the requirements to 
assess whether a unit is Mission Capable or Non-Mission Capable. For 
example, there are 122 functional area checklists for the Marine Corps 
to include Safety, Physical Security, Training, Medical, Dental, Equal 
Opportunity and Sexual Assault. If a unit is assessing to be Non-
Mission Capable, the Unit Commander has 30 days to bring his command up 
to standard. Commanders can ask for HQMC assistance, request for 
extensions or refer an issue they can't fix (Manpower, Funding, etc.) 
up the chain of command for resolution
    Question: Do they include reviews of commands within smallest 
units? Answer: The Marine Corps inspection program applies to all units 
regardless of mission, size or location. The subject of Hazing is 
address through annual Ethics and Core Values training.
    Question: Do they include hazing incidents and hazing culture as 
part of the review? Answer: Hazing is addressed as part of Ethics and 
Core Values required training at all levels of command to include:
    1)   Entry level training, MCRD Paris Island, MCRD San Diego, 
Officer Candidate School, Quantico
    2)   Career Level Schools, Expeditionary Warfare School, Command 
and Staff College, Marine Corps War College, Corporals Course, NCO 
School, Staff NCO Academy Professional Development, General Officers 
Symposium, SgtMajs Symposium, Commanders Course
    Ms. Chu and Mr. Honda. 36) Some of the Services stated that they 
require their personnel to report incidents of hazing and harassment. 
Where are these reporting requirements defined or documented? Also, 
what are the penalties for failure to report these incidents?
    Sergeant Major Barrett. 36) The updated MCO on Hazing (MCO 
1700.28A) directs Commanding Officers and Officers in Charge to report 
all substantiated incidents of hazing. The Marine Corps is implementing 
a reporting process to capture all substantiated and unsubstantiated 
incidents of hazing through the DASH reporting system. Incidents of 
hazing are documented and reported with the Operations Event/Incident 
Report (OPREP-3) Serious Incident Report as directed in MCO 3504.2. 
This Order articulates the reporting policies and instructions for 
reportable events or incidents. The report provides information to the 
Commandant of the Marine Corps and Senior Marine Corps Leadership for 
reportable events. A Hazing event or incident that results in death, 
injury requiring hospitalization or significant property damage, is 
included as a reportable event.
    Failure to comply with Marine Corps orders is punishable under the 
Uniform Code of Military Justice. Art. 92., Failure to obey any lawful 
order or regulation. Art. 134. Conduct prejudicial to good order and 
discipline.
    Ms. Chu and Mr. Honda. 37) During the hearing, each of the Services 
shared their latest statistics about hazing. However, the timeline for 
these numbers were inconsistent across all the branches and only 
included cases that went to a Courts Martial. How many cases of hazing 
occurred within each of the Services over the last 5 years, including 
both Courts Martial and Non-Judicial Punishment? How do these numbers 
break down by race and gender? What were the respective punishments for 
each instance?
    Sergeant Major Barrett. 37) The Marine Corps has court-martial 
statistics for hazing cases dating back to the implementation of the 
Marine Corps Case Management System (CMS) in February 2010.
    In calendar year 2011, there were no general court-martial (GCM) 
cases involving hazing. There were 43 special court-martial (SPCM) 
cases that involved hazing.
    Of the 43 SPCMs, 11 resulted in convictions, 5 resulted in 
acquittals, and 27 were ultimately withdrawn from SPCM and adjudicated 
at lower forums. Of the 11 convictions, the following punishments were 
adjudged:--Restriction for 60 Days, Reduction to E-3, Reprimand;--
Reduction to E-6, Reprimand;--Bad Conduct Discharge, 9 Months 
Confinement, Reduction to E-1, Forfeiture of $900 pay for 9 Months;--90 
Days Confinement, Reduction to E-1, Forfeiture of $500.00 pay for 3 
Months;--Bad Conduct Discharge, 12 Months Confinement, Reduction to E-
1, Forfeiture of $978.00 pay for 12 Months;--Bad Conduct Discharge, 150 
Days Confinement, Reduction to E-1, Forfeiture of $500.00 pay for 3 
Months;--Bad Conduct Discharge, 6 Months Confinement, Reduction to E-
1;--4 Months Confinement, Reduction to E-1, Forfeiture of $900.00 pay 
for 5 Months;--Bad Conduct Discharge, 8 Months Confinement, Reduction 
to E-1, Forfeiture of $970.00 pay for 8 Months;--Bad Conduct Discharge, 
4 Months Confinement, Reduction to E-1, Forfeiture of $978.00 pay for 4 
Months;--Restriction and Hard Labor w/o Confinement for 60 Days, 
Reduction to E-1, Forfeiture of $978.00 pay for 6 Months.
    In calendar year 2010, there were three GCM and 26 SPCM cases that 
involved hazing.
    Of the three GCMs, two resulted in convictions and one resulted in 
an acquittal. The two convictions resulted in the following 
punishments:--Bad Conduct Discharge, 13 Months Confinement, Reduction 
to E-1, and Total Forfeitures;--Bad Conduct Discharge, 36 Months 
Confinement, Reduction to E-1, and Total Forfeitures.
    Of the 26 SPCMs, 10 resulted in convictions, 5 resulted in 
acquittals, and 11 were withdrawn from SPCM and ultimately adjudicated 
at lower forums. The 10 convictions adjudged the following 
punishments:--Bad Conduct Discharge, 8 Months Confinement, Reduction to 
E-1, Forfeiture of $964.00 pay for 8 Months;--Bad Conduct Discharge, 4 
Months Confinement, Reduction to E-1, Forfeiture of $964.00 pay for 4 
Months;--Bad Conduct Discharge, 10 Months Confinement, Reduction to E-
1, Forfeiture of $964.00 pay for 10 Months;--45 Days Confinement, 
Reduction to E-1, Forfeiture of $964.00 pay for 2 Months;--Reduction to 
E-4, Forfeiture of $833.00 pay for 1 Month;--Confinement for 85 Days, 
Reduction to E-2;--Confinement for 240 Days, Reduction to E-1, 
Forfeiture of $200.00 pay for 10 Months;--Confinement for 150 Days, 
Reduction to E-1, Forfeiture of $500.00 pay for 10 Months;--Confinement 
for 180 Days, Reduction to E-1, Forfeiture of $400.00 pay for 10 
Months;--Confinement for 3 Months, Reduction to E-1, Forfeiture of 2/3 
pay for 3 Months.
    JAGINST 5800.9C, the Department of the Navy's Quarterly Criminal 
Activity Report (QCAR), was revised on 23 March 2012 and now includes a 
sub-category, ``Disposition of Hazing Offenses.'' This report will now 
track the disposition of hazing offenses, as defined by MCO 1700.28A, 
including non-judicial punishment, summary court-martial, special 
court-martial, and general court-martial. The report will include 
``total adjudicated,'' ``total guilty,'' and ``total not guilty.'' 
Prior to this revision of the JAGINST, hazing offenses that were 
disposed of below the special court-martial level were not separately 
reported.
    Neither the Marine Corps Case Management System nor the QCAR 
identifies the race or gender of victims or accused in any disciplinary 
action.
    Ms. Chu and Mr. Honda. 38) Please provide the Committee with the 
relevant anti-hazing material and documents you use to train your 
service members.
    Sergeant Major Barrett. 38) Lesson materials are within enclosures 
(2) through (5). The training schools are updating/pen changing their 
lesson plans and material, with the new Marine Corps Order number and 
new policy on Hazing, while their periods of instructions are being 
taught. The current lesson materials are in the process of being 
updated by the Marine Corps Recruiting Depots (MCRDs), Marine Combat 
Training, School of Infantry (SOIs), Officer Candidates School, and The 
Basic School.
    Ms. Chu and Mr. Honda. 39) Please describe the difference under 
regulation and in practice, for each Service, between appropriate 
``corrective training'' and hazing.
    Sergeant Major Barrett. 39) There are two forms of corrective 
training. Incentive Training is only authorized at Marine Corps Recruit 
Depots (MCRD). Extra Military Instruction is authorized beyond recruit 
training. Both are designed to correct minor deficiencies and instill 
discipline. Neither is intended to be used in an abusive nature with no 
relation to the infraction committed.
    (1) ``Incentive Training'' (IT) is ``an aid in instilling 
discipline and motivation . . . '' IT consists of physical exercises 
administered in a controlled and deliberate manner as a consequence for 
minor disciplinary infractions.'' It is ONLY used at the MCRDs and may 
ONLY be administered by a Drill Instructor, per MCRDPI Depot Order 
P1513.6A.
    (2) ``Extra Military Instruction'' (EMI) is a non-punitive measure 
defined in JAGMAN paragraph 0103, as ``instruction in a phase of 
military duty in which an individual is deficient, and is intended for 
and directed towards the correction of that deficiency . . . It may be 
assigned only if genuinely intended to accomplish that result. It is 
not to be used as a substitute for judicial (court-martial) action or 
non-judicial punishment (NJP), and must be logically related to the 
deficiency in performance for which it was assigned.''
    Authority to assign EMI that is to be performed during normal 
working hours is not limited to any particular grade or rate, but is an 
inherent part of that authority over their subordinates that are vested 
in officers and noncommissioned/petty officers in connection with 
duties and responsibilities assigned to them. This authority to assign 
EMI that is to be performed during normal working hours may be 
withdrawn by any superior if warranted.
    Authority to assign EMI to be performed after normal working hours 
is vested in the Commanding Officer or Officer In Charge. Such 
authority may be delegated, as appropriate, to officers and 
noncommissioned/petty officers, in connection with duties and 
responsibilities assigned to them.
    Hazing is defined as any conduct whereby a military member or 
members, regardless of Service or rank, without proper authority causes 
another military member or members, regardless of Service or rank, to 
suffer or be exposed to any activity which is cruel, abusive, 
humiliating, oppressive, demeaning, or harmful. It is prohibited at all 
times pursuant to MCO 1700.28A.
    Ms. Chu and Mr. Honda. 40) When did your Service last update its 
hazing policy? Do you have any plans to review and update it if 
necessary? If your Service does not currently have an anti-hazing 
policy, are you considering instituting one?
    Sergeant Major Barrett. 40) The Marine Corps policy on Hazing was 
last updated on 1 February, 2012 (MCO 1700.28A). We are reviewing and 
updating the Hazing reporting process with the establishment of 
additional reporting and tracking procedures.
    Ms. Chu and Mr. Honda. 41) Please provide data broken up according 
to race/ethnic heritage and gender, regarding the following: How many 
service members have died from non-combat injuries in the last 10 
years? Of these incidents, how many were classified as suicide, 
homicide, accident, etc. Also, please include data on deaths resulted 
from friendly fire. How many equal opportunity complaints have been 
received from service members within the last 10 years? Of these 
claims, how many were substantiated? What are the total numbers of 
members in each Service of the last 10 years?
    Sergeant Major Barrett. 41) During 2002-2012, the Marine Corps had 
1,293 non-combatant deaths. Accidents were the number one cause of non-
combatant deaths (941). There were nine cases of ``Friendly Fire 
Deaths'' with white males having the majority of the incidents (6). 
White males also had the greatest number of suicides among all races 
(263) during the 10 year span. A complete breakdown of data is 
documented within enclosures (6) through (9).
    (PART 2): How many equal opportunity complaints have been received 
from service members within the last 10 years? Of these claims, how 
many were substantiated? What are the total numbers of members in each 
Service of the last 10 years?
    Answer: A consolidation of the total number of equal opportunity 
complaints, over the past 10 years, is listed in the following table 
and includes the total Active Component population. A breakdown of all 
equal opportunity complaints per year (2002-2012) are within enclosure 
(10).
    Type of Complaint Total Cases Substantiated Cases Cases of Sexual 
Discrimination 325 197 Cases of Race Discrimination 142 66 Cases of 
Gender Discrimination 60 13 Cases of Age Discrimination 1 1 Cases of 
Religion Discrimination 6 4
    Total Force Numbers (AC) Year Qty Year Qty 2002--173,749 2008--
198,505 2003--177,756 2009--202,786 2004--177,159 2010--202,441 2005--
180,025 2011--201,157 2006--180,414 2012--198,427 2007--186,471

    Ms. Chu and Mr. Honda. 42) Just by listening to the testimonies, we 
would think that this hearing is almost unnecessary. Each Service 
appears to denounce hazing and has safeguards to prevent it. Yet, 
hazing occurs, as evident by the recent incidents of Private Danny 
Chen, Lance Corporal Harry Lew, and aboard the Navy vessel, Bonhomme 
Richard. In fact, Secretary Panetta issued an anti-hazing directive 
during his holiday message in December.
    What I find extremely troubling is the lack of actual statistics on 
hazing. How can anyone be convinced that a problem doesn't exist or 
current policies are working if there is no method to monitor and 
evaluate it? Do any of the Services have a database or other monitoring 
system to record the incidences of hazing and harassment? If so, how do 
you use the data you collect?
    Chief Master Sergeant Roy. 42) The Air Force does not specifically 
track incidents of misconduct as hazing. However, the Air Force 
carefully monitors the disciplinary response to many incidents of 
misconduct through a computer-based tracking system known as AMJAMS 
(Automated Military Justice Analysis and Management System). The 
purpose of AMJAMS is to collect data pertaining to investigations, 
nonjudicial punishment imposed pursuant to Article 15, Uniform Code of 
Military Justice (UCMJ), trials by court-martial, and related military 
justice activity; it does not always contain information related to a 
case handled purely administratively (no UCMJ action).
    As hazing usually consists of behaviors otherwise punishable under 
the UCMJ (i.e., assault in violation of Article 128, or cruelty and 
maltreatment of a subordinate under Article 93), AMJAMS tracks the 
disciplinary response to underlying misconduct. For example, if two 
airmen were accused of hazing another airman by assaulting him in 
violation of Article 128, AMJAMS would identify the allegations for 
those two airmen as ``assault,'' not hazing. Since hazing does not have 
an objective definition, AMJAMS would only recognize an incident as 
``hazing'' if UCMJ specifications used the word ``hazing'' in the 
specification. After a thorough search of AMJAMS, only two incidents 
were identified in the past three years where charging authorities used 
``hazing'' in the specification to describe the incident; both airmen 
were punished via Article 15.
    Ms. Chu and Mr. Honda. 43) How does each Service evaluate that 
their current policies are working? Waiting to review policies after a 
slew of tragic cases is not effective prevention.
    Chief Master Sergeant Roy. 43) Air Force training is constantly 
evaluated for overall effectiveness and improvements via course 
critiques, end-of-course surveys, climate surveys, and measurement 
devices (e.g. written tests, progress checks, etc) and can be 
immediately updated by Air Education and Training Command (AETC) and 
United States Air Force Academy (USAFA). Furthermore, all Air Force 
training encourages Airmen to anonymously complete critique forms at 
any time to report unauthorized behavior. Airmen complete End of Course 
Surveys which includes questions covering their treatment during 
training and the opportunity to provide written comments regarding any 
aspect. Basic Military Training also uses systematic trend data to 
retool their education and training programs and policies.
    Additionally, the Air Force utilizes the Chief of Staff's Climate 
Survey to evaluate the climate at the unit and institutional levels. 
This is an opportunity for Airmen to provide anonymous feedback on 
issues such as hazing, maltreatment, favoritism, harassment, etc.
    At the local level, each unit is also required to have a Unit 
Climate Assessment when a new commander takes command, or every two 
years. These climate assessments are another opportunity for Airmen to 
provide feedback on the overall climate in the unit and inform 
leadership of any issues with hazing, maltreatment, harassment, 
favoritism, etc.
    Ms. Chu and Mr. Honda. 44) The hazing of service members in a 
National Guard company assigned in Kosovo surfaced only last month 
after a private in the company lodged a formal complaint. Lieutenant 
General Mark Hertling, Commander of U.S. Army Europe, commented that 
the private reporting the incident was courageous. In fact, the General 
said, ``For this guy to say what you guys are doing is wrong, 
courageous is an understatement.'' We definitely agree. However, it 
also speaks to the difficulties for subordinate service members to 
report inappropriate behavior of their senior officers. This must be 
nearly impossible during extended forward deployments when only the 
unit's immediate senior officers are present. What can be done to 
create an environment that ensures both accessibility to higher level 
of command for reporting of incidents and the safety of the victims and 
whistleblowers? What type of support system is in place for victims of 
hazing and whistleblowers who report hazing?
    Chief Master Sergeant Roy. 44) Air Force whistleblowers are 
protected under IAW 10 USC 1034. Violations are investigated and 
personnel who violate the whistleblower law are dealt with by command. 
Air Force personnel have avenues to complain about hazing that includes 
their chain of command and the Inspectors General (IG). Air Force IGs 
are assigned at nearly every wing/installation within the Air Force, to 
include active duty, Air Force Reserves, and Air National Guard. 
Personnel are briefed whenever they PCS at Newcomers' Briefings on how 
to contact the IG. The IGs are also required by Air Force Instruction 
(AFI) 90-301 to brief all newly assigned wing, group, and/or squadron 
commanders within 30 days of assumption of command on the roles of the 
IG and what whistleblower protection is. Also, the role of the IG and 
the IG process are outlined within the Professional Development Guide 
(PDG) that every enlisted member of the Air Force has to study prior to 
taking tests for promotion.
    Ms. Chu and Mr. Honda. 45) What have you done to address cultural 
sensitivity and to adopt a more intentional diversity and inclusion 
effort? Have you outreached to communities for resources and guidance? 
If not, what plans do you have to do so?
    Chief Master Sergeant Roy. 45) Diversity and inclusion are vital to 
the successful accomplishment of the Air Force mission. In fact, the 
Air Force characterizes diversity as a military necessity. The 
Secretary, Chief of Staff, and Chief Master Sergeant of the Air Force 
signed the Air Force Declaration on Diversity reinforcing their 
commitment to the principles of diversity and inclusion. Additionally, 
the Air Force promotes a culture that embraces diversity and provides 
the opportunity for all Airmen to reach their full potential. The Air 
Force Policy Directive on Diversity, Strategic Roadmap on Diversity, 
and Air Force Instruction on Diversity (in coordination now) all 
provide guidance and direction for Air Force members on promoting 
diversity and inclusion throughout the force.
    In response to Executive Order 13583 Establishing a Coordinated 
Government-wide Initiative to Promote Diversity and Inclusion in the 
Federal Workforce, our diversity office is conducting a thorough review 
of the Air Force's Diversity Strategic Roadmap to ensure that it is 
consistent with the President's guidance, federal jurisprudence, the 
Office of Personnel Management's Government-wide Diversity and 
Inclusion Strategic Plan and the Department of Defense Diversity and 
Inclusion Strategic Plan. Ensuring Air Force strategic level guidance 
is consistent with these higher level documents will allow us to 
further institutionalize diversity and inclusion throughout the Air 
Force.
    To ensure the Air Force is tied in with communities across the 
country, we developed a Calendar of National-level Diversity Outreach 
Events. For example, the Scientist and Engineer Career Field 
recruitment team at the Air Force Personnel Center annually sponsors 
and participates in the Hispanic Engineers National Achievement Awards 
Conference (HENAAC). Their participation at HENAAC and similar events 
not only helps to inform prospective Hispanic employees about Air Force 
civilian career opportunities but also provides a national-level venue 
to recognize the notable accomplishments of outstanding Air Force 
civilian members who have excelled in science and other technical 
careers. To plant the seeds of the benefits of service, good 
citizenship and a healthy lifestyle early on, the Air Force 
participates in other outreach programs focused on our youth. Heroes 
and Heritage is a program that brings high school students with high 
grade point averages together with military professionals to showcase 
opportunities in the Air Force and encourage young people to maintain 
their grades in order to widen their opportunities. Air Force in the 
Community (AFiC) is an Air Force sponsored program in which we brought 
a science, technology, engineering and math (STEM) program to middle 
school students, parents, and key educators and influencers for a two 
day event featuring a STEM related project competition, student 
physical fitness challenges, and Air Force guest speakers. Our 
messaging stressed the importance of leadership, physical fitness, 
education, and good citizenship.
    Air Force bases across the country are also collaborating with 
their local communities and reaching out to young students. For 
example, Tinker AFB, Oklahoma, recently partnered with Viva Technology 
and a local middle school involving over 100 students, local high 
schools, and Tinker AFB employees during a special technology program 
at the Mid-Del Technology Center. Additionally, Air Force members 
participate in approximately 350 regional fairs in the United States 
and Puerto Rico along with the International Science and Engineering 
Fair to encourage the achievements of America's youth in STEM.
    Our deliberate civilian force development programs are intended to 
develop and sustain our world-class and diverse civilian force and meet 
mission requirements by training civilians to perform essential 
technical and occupational skills, serve in institutional leadership 
roles in multiple environments, and produce a competitive cadre of 
candidates prepared to fill key positions. The Air Force is committed 
to building diversity within our military and civilian ranks; we 
actively recruit, develop and retain highly qualified people who bring 
tremendous talent and ability to our team.
    Ms. Chu and Mr. Honda. 46) Do hazing and harassment training, 
monitoring, and enforcement policies need to be uniform across the 
Services?
    Chief Master Sergeant Roy. 46) Yes, we believe these policies 
should be standardized across the Services to the maximum extent 
possible. In a fiscally constrained environment where aircraft and 
other weapon systems will be cut from the Air Force inventory along 
with corresponding personnel, standardized programs that can be used as 
a baseline would be optimal provided the Services are afforded the 
flexibility to supplement and tailor based on mission needs.
    Ms. Chu and Mr. Honda. 47) Army Sergeant Major Chandler and USMC 
Sergeant Major Barrett testified their interest in creating a statutory 
definition of hazing in the Uniform Code of Military Justice (UCMJ). 
They implied that this would make it easier for them to track these 
incidents. Currently 44 States have anti-hazing laws and 31 States 
define hazing as a crime in their criminal code. We believe that 
defining hazing in the UCMJ would provide a strong disincentive against 
hazing and yet another tool for prosecutors to go after the 
perpetrators of hazing. What are the Services' assessments regarding a 
statutory definition for the Defense Department? What should a 
definition look like?
    Chief Master Sergeant Roy. 47) In the past, perpetrators of hazing 
have been prosecuted under the UCMJ for associated behaviors in 
connection with the incident (i.e., assault consummated by battery, 
cruelty and maltreatment of a subordinate, failure to obey lawful 
general order, etc.). While the behaviors associated with hazing 
usually constitute offenses under Articles 128, 92, 93, 133, and/or 
134, the maximum punishment for each offense depends on the specific 
UCMJ article under which it is charged. A UCMJ offense specifically 
criminalizing ``hazing'' could be helpful if drafted correctly. A 
statutory definition for hazing would have to be broad enough to cover 
behaviors commonly connected with hazing, delineated enough to 
distinguish hazing offenses from similar crimes not constituting 
hazing, and narrow enough to not criminalize appropriate activities 
customarily associated with military training. Such a definition could 
look similar to the following draft, though any definition should be 
carefully studied and reviewed by the Joint Service Committee on 
Military Justice.
    ``17a. Article 93a--Hazing
    Any person subject to this chapter who, as a form of initiation, 
congratulatory action, unauthorized training, or unlawful punishment, 
wrongfully causes another person subject to this chapter to suffer or 
be exposed to any activity which is cruel, abusive, humiliating, 
oppressive, demeaning, or harmful, or encourages another to engage in 
such activities or other illegal activities under this code, shall be 
guilty of hazing and shall be punished as a court-martial may direct.''
    Ms. Chu and Mr. Honda. 48) Representative Coffman expressed a 
failure of leadership in the unit level as the primary cause for these 
recent hazing cases. We understand that annual drop-down reviews of 
command are required by the Services. Do these reviews actually occur 
annually? Do they include reviews of commands within smallest units? 
What specifically are they reviewing? Do they include hazing incidents 
and hazing culture as part of the review? Do they include reviews to 
ensure that each command level has adequate hazing and harassment 
prevention training?
    Chief Master Sergeant Roy. 48) Within the United States Air force 
Inspector General channels, the Air Force Inspection Agency conducts 
Compliance Inspections that review both the functional requirements of 
entire units' mission, and the leadership and management elements of 
the unit. However, there is no specific checklist item that addresses 
hazing incidents within the unit. The Compliance Inspections are 
targeted to occur every 24 months to ensure they capture the current 
commander's performance in that position.
    Additionally, the Air Force utilizes the Chief of Staff's Climate 
Survey to evaluate the climate at the unit and institutional levels. 
This is an opportunity for Airmen to provide anonymous feedback on 
issues such as hazing, maltreatment, favoritism, harassment, etc.
    At the local level, each unit is also required to have a Unit 
Climate Assessment (UCA) when a new commander takes command, or every 
two years. These climate assessments are another opportunity for Airmen 
to provide feedback on the overall climate in the unit and inform 
leadership of any issues with hazing, maltreatment, harassment, 
favoritism, etc. The installation commander has visibility of all 
completed UCAs through the semi-annual Human Relations Climate 
Assessment (HRCA). During the HRCA the installation commander receives 
an analysis of the installation equal opportunity (EO) and human 
relations climate (HRC). Senior leadership discusses EO complaints and 
UCA trends affecting the installation work environment from a total 
force perspective and makes actionable strategic/tactical 
recommendations to address areas of concern. Another assessment tool 
conducted by the EO office is the Out and About Program. During this 
assessment, EO staff members visit various work centers and base 
facilities to gather additional EO/human relations information that may 
impact installation personnel. The EO director schedules out and about 
assessments with the unit commander, staff agency chief or first 
sergeant. The EO director will ensure unit leadership receives a 
summary of observations following the assessment.
    Ms. Chu and Mr. Honda. 49) Some of the Services stated that they 
require their personnel to report incidents of hazing and harassment. 
Where are these reporting requirements defined or documented? Also, 
what are the penalties for failure to report these incidents?
    Chief Master Sergeant Roy. 49) The Air Force does not have a formal 
policy specifically regarding the reporting of hazing. However, Air 
Force training courses are required to brief trainees on the Air Force 
policy prohibiting hazing. Air Education and Training Command 
Instruction (AETCI) 36-2203, Technical and Basic Military Training 
Development, requires all training venues, i.e. Basic Military Training 
and technical training, to address sexual harassment/assault, 
unprofessional relationships, and hazing within their orientation 
programs. The AETCI further requires commanders to ensure AETCVA 36-6, 
Points of Contact for Students and Trainees, is displayed on Airmen 
bulletin boards in military training flights (MTF) and dormitory areas. 
This visual aid reinforces the reporting proceedure and encourages 
Airmen to follow the chain of command, inspector general channels or 
other means (i.e. students are encouraged to anonymously complete 
critique forms and end of course surveys) to resolve issues.
    All Airmen are entitled to an environment free from personal, 
social, or institutional barriers that prevent Airmen from rising to 
the highest level of responsibility possible. Hazing is contrary to 
good order and discipline, is not acceptable behavior, and is not 
tolerated in the Air Force. Compliance with the policy against hazing 
is the responsibility of every Airman, and Airmen who engage in, 
condone, or ignore it face administrative actions. A commander's 
options include, but are not limited to, counseling, reprimand, 
creation of an unfavorable information file (UIF), removal from 
position, reassignment, demotion, delay of or removal from a promotion 
list, adverse or referral comments in performance reports and 
administrative separation. More serious cases that involve assault, 
aggravated assault, maltreatment of subordinates, etc, may warrant 
court-martial or non-judicial punishment for the offender. Moreover, if 
an Airman is uncomfortable with reporting suspected hazing incidents 
through his or her chain of command, they are encouraged to use the 
base Inspector General.
    Ms. Chu and Mr. Honda. 50) During the hearing, each of the Services 
shared their latest statistics about hazing. However, the timeline for 
these numbers were inconsistent across all the branches and only 
included cases that went to a Courts Martial. How many cases of hazing 
occurred within each of the Services over the last 5 years, including 
both Courts Martial and Non-Judicial Punishment? How do these numbers 
break down by race and gender? What were the respective punishments for 
each instance?
    Chief Master Sergeant Roy. 50) The Air Force does not specifically 
categorize cases under a ``hazing'' designation and does not routinely 
see incidents of hazing. However, there were two cases within the past 
3 years where ``hazing'' was used in the language of the specification. 
Those cases were Article 15s:
    1) An airman's violation of Article 92 (dereliction of duty) at 
Basic Military Training (BMT) for hazing another BMT student, resulting 
in forfeiture of $699 per month for two months (one month suspended) 
and a reprimand; and,
    2) A Staff Sergeant's violation of Article 93 (cruelty and 
maltreatment of subordinate) for striking and threatening an airman 
with a poor Enlisted Performance Report for failing to submit to 
hazing, resulting in a reduction to Senior Airman.
    Although hazing in the Air Force appears to be limited and 
isolated, the Air Force is confident that if hazing incidents arise in 
the future that are localized to a unit or part of a unit, commanders 
would be aware of them, address the misconduct under the Uniform Code 
of Military Justice and deal with the hazing aspect appropriately 
through administrative or other command actions.
    Ms. Chu and Mr. Honda. 51) Please provide the Committee with the 
relevant anti-hazing material and documents you use to train your 
service members.
    Chief Master Sergeant Roy. 51) The requested relevant anti-hazing 
material and documents were provided on a CD to PSM Craig Greene of the 
HASC Mil Pers on 16 Feb 12.
    Ms. Chu and Mr. Honda. 52) Please describe the difference under 
regulation and in practice, for each Service, between appropriate 
``corrective training'' and hazing.
    Chief Master Sergeant Roy. 52) The Military Commander and the Law 
defines hazing as any conduct whereby a military member without proper 
authority causes another military member, regardless of Service or 
rank, to suffer or be exposed to any activity which is cruel, abusive, 
humiliating, oppressive, demeaning, or harmful. It further states that 
physical contact is not necessary--verbal or psychological abuse will 
suffice. In addition, soliciting or encouraging another to engage in 
such activity is also considered hazing. Hazing is typically associated 
with ``rites of passage'' or initiations. Some examples include hitting 
or striking, tattooing, branding, shaving, ``blood pinning,'' and 
forcing alcohol consumption. Actual or implied consent to hazing does 
not eliminate the perpetrator's culpability.
    Conversely, alternative corrective measures (verbal counseling, 
training sessions, remedial transition period (RTP), and mandatory 
curfew), when authorized by the chain of command and not unnecessarily 
cruel, abusive, oppressive, or harmful falls outside the punitive 
definition of hazing. Therefore, in accordance with (IAW) Air Education 
and Training Command Instruction (AETCI) 36-2216, Administration of 
Military Standards and Discipline Training, such measures are used 
during Basic Military Training (BMT) and technical training to correct 
disciplinary infractions and substandard behavior with a specific focus 
on the following areas: room and uniform inspections, Air Force Core 
Values, Enlisted Force Structure, drill and ceremonies, fitness, combat 
skills, and tasks. The AETI further states, if and when required, 
Military Training Leaders (MTLs), Military Training Instructors (MTIs), 
and Commanders will use a ``flexible leadership style that employs 
mutual respect, support, genuine concern, and targeted doses of 
discipline, as needed.'' For example, an Airman who consistently fails 
room inspections may be tasked with building clean up duty until the 
behavior is learned. These temporary measures will not exceed 10-12 
duty hours over 15 calendar days unless additional time is warranted, 
properly documented, and approved by the military training flight chief 
not to exceed 30 consecutive days. Should additional corrective 
measures be warranted to reinforce attention to detail, motivate 
students, and/or build teamwork to accomplish a specific goal or 
training objective to promote student success, it will only be 
authorized as reflected in approved and certified training plans. These 
procedures are reviewed/approved annually by the applicable group, 
wing, and numbered air force director of operations.
    Ms. Chu and Mr. Honda. 53) When did your Service last update its 
hazing policy? Do you have any plans to review and update it if 
necessary? If your Service does not currently have an anti-hazing 
policy, are you considering instituting one?
    Chief Master Sergeant Roy. 53) The Chief of Staff of the Air Force 
issued an Air Force Policy on Hazing on 30 Oct 97. The Air Force has 
not issued any subsequent policy specifically addressing hazing.
    Ms. Chu and Mr. Honda. 54) Please provide data broken up according 
to race/ethnic heritage and gender, regarding the following: How many 
service members have died from non-combat injuries in the last 10 
years? Of these incidents, how many were classified as suicide, 
homicide, accident, etc. Also, please include data on deaths resulted 
from friendly fire. How many equal opportunity complaints have been 
received from service members within the last 10 years? Of these 
claims, how many were substantiated? What are the total numbers of 
members in each Service of the last 10 years?
    Chief Master Sergeant Roy. 54) Attached.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Chu and Mr. Honda. 55) Just by listening to the testimonies, we 
would think that this hearing is almost unnecessary. Each Service 
appears to denounce hazing and has safeguards to prevent it. Yet, 
hazing occurs, as evident by the recent incidents of Private Danny 
Chen, Lance Corporal Harry Lew, and aboard the Navy vessel, Bonhomme 
Richard. In fact, Secretary Panetta issued an anti-hazing directive 
during his holiday message in December.
    What I find extremely troubling is the lack of actual statistics on 
hazing. How can anyone be convinced that a problem doesn't exist or 
current policies are working if there is no method to monitor and 
evaluate it? Do any of the Services have a database or other monitoring 
system to record the incidences of hazing and harassment? If so, how do 
you use the data you collect?
    Master Chief Leavitt. 55) Hazing may be investigated at the Command 
level or by the Coast Guard Investigative Service, and may be 
punishable under provisions of the Uniform Code of Military Justice. 
Substantiated cases may result in court-martial, confinement (jail 
time,) and punitive discharge.
    Courts-martial involving hazing misconduct are tracked by the Judge 
Advocate General in the Office of Military justice at Coast Guard 
Headquarters. The Coast Guard does not have a mechanism to track hazing 
cases that are adjudicated outside courts-martial.
    Harassment based on a protected status is reported to the unit 
chain of command or to a Civil Rights Service Provider. When a 
Harassment Incident is reported, Commanders of Coast Guard Units have 
an affirmative duty to ensure the safety of the victim, conduct an 
investigation, and report findings to the Civil Rights Directorate. In 
addition to these steps, the victims may choose to initiate the Equal 
Employment Opportunity discrimination complaint process as outlined in 
COMDTINST M5350.4C, 4-A.1. The Coast Guard offers a complaint process 
for military members patterned after the process for civilian members, 
based on the Equal Employment Opportunity Commission (EEOC) Federal 
Sector Regulations at 29 Code of Federal Regulations (C.F.R.) Part 
1614. Data regarding Civil Rights complaints is tracked by CG-00H, the 
Coast Guard Civil Rights Directorate.
    Ms. Chu and Mr. Honda. 56) How does each Service evaluate that 
their current policies are working? Waiting to review policies after a 
slew of tragic cases is not effective prevention.
    Master Chief Leavitt. 56) The Coast Guard uses proactive monitoring 
based on organizational and climate surveys as well as input from the 
field and multiple leadership/diversity councils to review and update 
policies.
    Additionally, these inputs are used to monitor and evolve Coast 
Guard culture via revised policies, training, or leadership emphasis.
    Every other year beginning in 2002, Coast Guard members and 
employees have confidentially participated in the Coast Guard's 154-
question Organizational Assessment Survey (OAS) about employee 
satisfaction. The survey does not include specific questions about 
hazing, but does indicate the overall unit climate. The results are 
provided via reports generated by the U.S. Office of Personnel 
Management OPM web based tool. Data is kept at OPM to insure 
confidentially and to prevent suppression of honest responses during 
future administrations of the OAS and other surveys.
    The Defense Equal Opportunity Management Institute (DEOMI) manages 
another command assessment tool, the DEOMI Organizational Climate 
Survey (DEOCS). This survey is used as a Commander's management tool 
that allows the Coast Guard to proactively assess critical 
organizational climate dimensions that can impact the organization's 
effectiveness. Additional information is available at their website, 
http://www.deocs.net/public/index.cfm .

    Within the DEOCS tool:

    --Respondents answer questions that characterize their unit's 
readiness, formal and informal policies, practices, and procedures that 
occur or are likely to occur within the organization.
    --The survey assesses 13 climate factors by posing questions 
answered by survey takers using a five-point scale.
    --The questionnaire focuses on three primary areas: Military Equal 
Opportunity (EO), Civilian Equal Employment Opportunity (EEO), and 
Organizational Effectiveness (OE).
    --Respondents' anonymity is protected when completing the online 
survey by using a computer-generated, untraceable, single use password. 
Also, no personally identifying information is collected.

    Commanding Officers (COs) can add up to 10 locally-developed 
questions (LDQs) and five short answer questions (SAQs) to their unit 
surveys, helping them target specific areas of concern. The program 
allows COs to select from among hundreds of LDQs and SAQs already 
written, or to create their own.
    Ms. Chu and Mr. Honda. 57) The hazing of service members in a 
National Guard company assigned in Kosovo surfaced only last month 
after a private in the company lodged a formal complaint. Lieutenant 
General Mark Hertling, Commander of U.S. Army Europe, commented that 
the private reporting the incident was courageous. In fact, the General 
said, ``For this guy to say what you guys are doing is wrong, 
courageous is an understatement.'' We definitely agree. However, it 
also speaks to the difficulties for subordinate service members to 
report inappropriate behavior of their senior officers. This must be 
nearly impossible during extended forward deployments when only the 
unit's immediate senior officers are present. What can be done to 
create an environment that ensures both accessibility to higher level 
of command for reporting of incidents and the safety of the victims and 
whistleblowers? What type of support system is in place for victims of 
hazing and whistleblowers who report hazing?
    Master Chief Leavitt. 57) Lieutenant General Hertling's visible 
leadership stance in this regard is often the most effective factor in 
changing a culture or creating an environment that supports and 
reinforces the policy of reporting incidents. Similarly, the leadership 
of the Coast Guard has taken steps to unequivocally denounce hazing, to 
reinforce policy and to foster an environment that does not tolerate 
hazing and promotes reporting incidents when they occur. This 
leadership emphasis, coupled with robust training for all new members, 
and annually thereafter, reinforces the requirement to report 
incidents.
    There are multiple venues for reporting incidents, including the 
chain of command and the Civil Rights program (via regional Civil 
Rights Service Providers). Access to the chain of command is codified 
in the Uniform Code of Military Justice (Article 138).
    The Coast Guard has both organic resources and administrative 
policies and procedures available to ensure the protection of victims 
and/or whistleblowers. Organic resources include: the Critical Incident 
Stress Management program, the Employee Assistance Program and 
Chaplains to assist with the mental welfare of the workforce; Family 
and Sexual Violence Investigators from Coast Guard Investigative 
Service (CGIS), trained to handle incidents of rape and sexual assault 
and provide recommendations regarding the safety of the victims, and 
Sexual Assault Response Coordinators (SARC) and Victim Advocates (VA) 
from the Work-Life program to provide victim advocacy services. 
Administrative policies and procedures include: temporary or permanent 
reassignment to another unit during or after an investigation for the 
safety and best interests of the member; the Personnel Records Review 
Board and the Board for Corrections of Military Records to appeal 
retaliatory evaluations; the Civil Rights program for Equal Opportunity 
and Equal Employment Opportunity complaints; and Military Protective 
Orders issued by the command when warranted to ensure the safety of 
personnel. In addition, the Military Whistleblower Protection Act of 
1988, 10 U.S.C. Section 1034, provides protection for a military 
service member who makes a protected communication regarding a 
violation of law or regulation. The superiors of these service members 
are prohibited from retaliating against the service member making the 
protected statements.
    Ms. Chu and Mr. Honda. 58) What have you done to address cultural 
sensitivity and to adopt a more intentional diversity and inclusion 
effort? Have you outreached to communities for resources and guidance? 
If not, what plans do you have to do so?
    Master Chief Leavitt. 58) Culture and diversity sensitivity are 
emphasized throughout the Coast Guard. The Coast Guard is very proud of 
its strategic approach to diversity management and strives to be 
recognized as the ``Service of Choice'' in the federal government for 
recruiting, retaining, and sustaining a ready, diverse, and highly-
skilled Total Workforce. The Commandant's Diversity Policy Statement is 
published on the Coast Guard Website and is circulated to all 
personnel. In 2011, the Coast Guard published its revised Diversity 
Strategic Plan that set clear and concise direction to better position 
Coast Guard leaders to define a pathway for change in our efforts to 
make the Coast Guard workforce reflective of American society. To 
implement our Plan, we are executing a deliberate and focused campaign 
plan, OPTASK DIVERSITY, which captures performance assessments 
quarterly to identify, address and remove barriers.
    To acknowledge and better utilize the link between leadership and 
diversity, the Coast Guard combined the Leadership Advisory Council and 
the Diversity Advisory Council into the Commandant's Leadership, 
Excellence, and Diversity (LEAD) Council. This council meets semi-
annually and is comprised of representatives from every facet of our 
workforce. The LEAD Council's findings and recommendations are briefed 
directly to the Commandant. To work in conjunction with the Commandant 
level LEAD Council, a Coast Guard wide Leadership and Diversity 
Advisory Council network was established. This network established a 
pathway for field leadership and diversity issues to be discussed 
throughout the Coast Guard and be brought to the highest levels of 
Coast Guard leadership via the LEAD Council when appropriate.
    Recruiting and retaining a high quality diverse workforce is an 
important mission for the Coast Guard. The Office of Diversity partners 
with many communities, as well as national level organizations and 
affinity groups. Specifically, an extensive collaboration exists 
between the Coast Guard Academy, the Coast Guard Human Resources 
Directorate and the National Society of Black Engineers (NSBE) to 
increase awareness of Coast Guard career opportunities to 
underrepresented populations. Coast Guard members also participate in a 
variety of affinity groups such as the National Naval Officer 
Association (NNOA), the Sea Service Leadership Association (SSLA) and 
the Association of Naval Service Officers (ANSO). These groups provide 
a venue at local, regional and national levels for mentoring, 
professional development and an open discussion on diversity and 
inclusion.
    Ms. Chu and Mr. Honda. 59) Do hazing and harassment training, 
monitoring, and enforcement policies need to be uniform across the 
Services?
    Master Chief Leavitt. 59) Anti-hazing and harassment policies, 
training, and monitoring should be similar for all the Services. 
However, each service chief must retain the authorities necessary to 
promote and enforce good order and discipline within their Service.
    Ms. Chu and Mr. Honda. 60) Army Sergeant Major Chandler and USMC 
Sergeant Major Barrett testified their interest in creating a statutory 
definition of hazing in the Uniform Code of Military Justice (UCMJ). 
They implied that this would make it easier for them to track these 
incidents. Currently 44 States have anti-hazing laws and 31 States 
define hazing as a crime in their criminal code. We believe that 
defining hazing in the UCMJ would provide a strong disincentive against 
hazing and yet another tool for prosecutors to go after the 
perpetrators of hazing. What are the Services' assessments regarding a 
statutory definition for the Defense Department? What should a 
definition look like?
    Master Chief Leavitt. 60) ``It is the Coast Guard's opinion that it 
is unnecessary to create a new punitive article under the Uniform Code 
of Military Justice (UCMJ) to hold active duty service members 
accountable for hazing misconduct, nor would it make ``tracking'' 
hazing courts-martial easier. The Coast Guard has a robust and clear 
anti-hazing policy (and associated training requirements). That policy 
is outlined in Chapter 2 of the Discipline and Conduct Manual, 
COMDTINST M1600.2. As recognized by COMDTINST M1600.2, there is a wide 
variety of misconduct that can be associated with and manifest during 
hazing activity. The variety of hazing misconduct can and has been 
addressed by Commanders through disciplinary action under the UCMJ to 
include trial by court-martial. Hazing misconduct has successfully been 
charged under Articles 90, 92, 93, 120, 128, and 134 of the UCMJ. Thus, 
the UCMJ provides great flexibility for Commanders and the Service in 
disciplining and prosecuting hazing activity. Charging decisions are 
informed by the facts unique to the particular hazing case(s). If an 
enumerated offense of hazing is developed, there would be the 
unintended consequence of narrowing the type of conduct labeled and 
charged as ``hazing''. Essentially, this could lead to the 
underreporting of hazing incidents throughout the Services. The Coast 
Guard is unable to draft a clear ``hazing'' definition that can fully 
capture the vast range of misconduct that is currently punitive under 
the existing UCMJ.
    During preparation for MCPOCG Leavitt's recent congressional 
testimony on hazing, the Coast Guard JAG Office of Military Service 
(CG-0946) was able to quickly abstract metrics for all Coast Guard 
courts-martial held over the past 4 years that involved hazing. Non-
judicial punishment remains an area of weakness for tracking due to the 
inherent limitations of the Direct Access data base. The value of an 
enumerated ``hazing'' definition in statute has been a recent topic of 
discussion at the Joint Service Committee. Response from all Services 
has initially been unfavorable for many of the reasons outlined 
above.''
    Ms. Chu and Mr. Honda. 61) Representative Coffman expressed a 
failure of leadership in the unit level as the primary cause for these 
recent hazing cases. We understand that annual drop-down reviews of 
command are required by the Services. Do these reviews actually occur 
annually? Do they include reviews of commands within smallest units? 
What specifically are they reviewing? Do they include hazing incidents 
and hazing culture as part of the review? Do they include reviews to 
ensure that each command level has adequate hazing and harassment 
prevention training?
    Master Chief Leavitt. 61) The Coast Guard uses a number of surveys 
in a systemic manner to monitor Coast Guard culture, and the impact of 
policy and other changes intended to improve the culture of the 
organization.
    Every other year beginning in 2002, Coast Guard members and 
employees have confidentially participated in the Coast Guard's 154-
question Organizational Assessment Survey (OAS) about employee 
satisfaction. The survey does not include specific questions about 
hazing, but does indicate the overall unit climate. The results are 
provided via reports generated by the U.S. Office of Personnel 
Management (OPM). Data is kept at OPM to insure confidentially and to 
prevent suppression of honest responses during future administrations 
of the OAS and other surveys.
    The Defense Equal Opportunity Management Institute (DEOMI) manages 
another command assessment tool, the Defense Equal Opportunity Climate 
Survey (DEOCS). This survey is used as a Commander's management tool 
that allows the Coast Guard to proactively assess critical 
organizational climate dimensions that can impact the organization's 
effectiveness. Additional information is available at their website: 
http://www.deocs.net/public/index.cfm . Specific hazing related 
questions in the DEOCS survey would be beneficial. Within the DEOCS 
tool:

    --Respondents answer questions that characterize their unit's 
readiness, formal and informal policies, practices, and procedures that 
occur or are likely to occur within the organization.
    --The survey assesses 13 climate factors by posing questions 
answered by survey takers using a five-point scale.
    --The questionnaire focuses on three primary areas: Military Equal 
Opportunity (EO), Civilian Equal Employment Opportunity (EEO), and 
Organizational Effectiveness (OE).
    --Respondents' anonymity is protected when completing the online 
survey by using a computer-generated, untraceable, single use password. 
Also, no personally identifying information is collected.

    Commanding Officers (COs) can add up to ten locally-developed 
questions (LDQs) and five-short answer questions (SAQs) to their unit 
surveys, helping them target specific areas of concern. The program 
allows COs to select from among hundreds of LDQs and SAQs already 
written, or to create their own.
    Ms. Chu and Mr. Honda. 62) Some of the Services stated that they 
require their personnel to report incidents of hazing and harassment. 
Where are these reporting requirements defined or documented? Also, 
what are the penalties for failure to report these incidents?
    Master Chief Leavitt. 62) The Coast Guard's hazing policy is found 
in the Discipline and Conduct Manual, Commandant Instruction Manual 
M1600.2. The policy includes the following language: ``Every military 
member must inform the appropriate authorities of each suspected 
violation of this policy'' and ``Victims of actual or attempted hazing 
and witnesses to these activities must report it to the appropriate 
level of the chain of command.'' Additionally, the hazing policy 
mandates that commands must investigate hazing incidents, including 
those who ``tacitly condoned such practices, either by inaction or 
neglecting to investigate reported incidents.''
    Commands have a wide variety of tools available to hold individuals 
accountable for failing to report hazing. The appropriate action is 
dependent upon incident-specific circumstances. Available remedies 
range from counseling to discharge proceedings, and/or adjudication 
under the Uniform Code of Military Justice.
    Ms. Chu and Mr. Honda. 63) During the hearing, each of the Services 
shared their latest statistics about hazing. However, the timeline for 
these numbers were inconsistent across all the branches and only 
included cases that went to a Courts Martial. How many cases of hazing 
occurred within each of the Services over the last 5 years, including 
both Courts Martial and Non-Judicial Punishment? How do these numbers 
break down by race and gender? What were the respective punishments for 
each instance?
    Master Chief Leavitt. 63) Since CY 2009, nine courts-martial have 
convened and one case is pending for serious misconduct arising out of 
hazing activity throughout the Coast Guard. Seven of the cases related 
to hazing took place aboard Coast Guard Cutter VENTUROUS between 2007 
and 2009, and were referred to courts-martial. Several other crew 
members received administrative action under the Uniform Code of 
Military Justice for less egregious infractions. Punishments from the 
seven courts-martial resulted in five members receiving confinement or 
restrictions of up to five months, six members being reduced in pay 
grade, three members forfeiting pay, one member being discharged, and 
one member receiving a bad conduct discharge.
    In addition to the incidents on VENTUROUS, two other courts-martial 
have convened for hazing incidents, at Station Cape Disappointment and 
Sector Mobile since 2009; both of these cases are in final legal 
review. There is also a case pending at Sector San Francisco set for 
trial in late April 2012.
    Twenty-three Coast Guard personnel, all male, have been identified 
as the ``targets,'' or victims of serious hazing misconduct. Seventy-
eight percent of the victims are Caucasian (white). Other victims are 
evenly distributed across other racial profiles to include Asian, 
African-American/Black, Hispanic, Hawaiian Islander and Native 
American/Alaska Native. ``Juniority'' of rank appears to be the primary 
motivating factor for the offender to target a victim.

    Hazing Victim Racial Profiles

    White--78%--(18) Asian--4%--(1) Black--4%--(1) Hispanic--4%--(1) 
Other--8%--(2) Total--23
    Ms. Chu and Mr. Honda. 64) Please provide the Committee with the 
relevant anti-hazing material and documents you use to train your 
service members.
    Master Chief Leavitt. 64) [The information referred to is retained 
in the committee files and can be viewed upon request.]
    Ms. Chu and Mr. Honda. 65) Please describe the difference under 
regulation and in practice, for each Service, between appropriate 
``corrective training'' and hazing.
    Master Chief Leavitt. 65) Corrective training, called Extra 
Military Instruction (EMI) in the Coast Guard, has specific 
requirements and structure, which is outlined by the Military Justice 
Manual. The tasks and/or training ordered to be performed as EMI must 
relate to and have the logical purpose of correcting an identified 
deficiency related to the performance of assigned duties.
    The Conduct and Discipline Manual defines hazing as any conduct in 
which a military member without proper authority causes another 
military member(s) to suffer or be exposed to any cruel, abusive, 
humiliating, oppressive, demeaning or harmful activity regardless of 
the perpetrator's and recipient's Service or rank. Soliciting or 
coercing another to conduct such activity also constitutes hazing. 
Specific examples are listed in the policy.
    Extra Military Instruction is outlined in section 1.G.1.b of the 
Military Justice Manual, COMDTINST M5810.1, available at: http://
www.uscg.mil/directives/cim/5000-5999/CIM_5810_1E.pdf.
    Ms. Chu and Mr. Honda. 66) When did your Service last update its 
hazing policy? Do you have any plans to review and update it if 
necessary? If your Service does not currently have an anti-hazing 
policy, are you considering instituting one?
    Master Chief Leavitt. 66) The Coast Guard's hazing policy is found 
in the Discipline and Conduct Manual, Commandant Instruction Manual 
M1600.2. The Manual was updated in September, 2011, and is reviewed 
frequently and updated whenever appropriate.
    Ms. Chu and Mr. Honda. 67) Please provide data broken up according 
to race/ethnic heritage and gender, regarding the following: How many 
service members have died from non-combat injuries in the last 10 
years? Of these incidents, how many were classified as suicide, 
homicide, accident, etc. Also, please include data on deaths resulted 
from friendly fire. How many equal opportunity complaints have been 
received from service members within the last 10 years? Of these 
claims, how many were substantiated? What are the total numbers of 
members in each Service of the last 10 years?
    Master Chief Leavitt. 67) See attached.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                  <all>

</pre></body></html>
